<html>
<title> - WHITE HOUSE PERIMETER BREACH: NEW CONCERNS ABOUT THE SECRET SERVICE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





  WHITE HOUSE PERIMETER BREACH: NEW CONCERNS ABOUT THE SECRET SERVICE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 30, 2014

                               __________

                           Serial No. 113-154

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-798 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                   
  
  
  
  
  
  
  
  
  
  
  
  
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 30, 2014...............................     1

                               WITNESSES

The Hon. Julia Pierson, Director, U.S. Secret Service
    Oral Statement...............................................     9
    Written Statement............................................    12
The Hon. W. Ralph Basham, Partner, Command Consulting Group, LLC 
  (Former Director of the U.S. Secret Service)
    Oral Statement...............................................    15
    Written Statement............................................    19
Mr. Todd M. Keil, Senior Advisor, Torchstone Page, Inc. (Former 
  Assistant Secretary for Infrastructure Protection, U.S. 
  Department of Homeland Security)
    Oral Statement...............................................    24
    Written Statement............................................    27

                                APPENDIX

Inventory sheet provided by the Virginia State Police, submitted 
  for the record by Mr. Cummings.................................    80
Opening statement of Rep. Elijah E. Cummings.....................    82
Opening statement of Congresswoman Eleanor Holmes Norton.........    84
Map of White House, submitted by Chairman Issa...................    86
August 20, 2014, letter to Julia Pierson from Rep. Jason 
  Chaffetz, submitted by Rep. Chaffetz...........................    87
Letter from U.S. Dept of Homeland Security U.S. Secret Service...    89
Remarks by the President at Signing of America's Promise Summit 
  Declaration, submitted by Rep. Jackson-Lee.....................    91
Dept. of Homeland Security, Office of Inspector General report, 
  submitted by Rep. Chaffetz.....................................    92

 
  WHITE HOUSE PERIMETER BREACH: NEW CONCERNS ABOUT THE SECRET SERVICE

                              ----------                              


                      Tuesday, September 30, 2014

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:03 a.m. in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Chaffetz, Gowdy, 
Collins, Meadows, Bentivolio, DeSantis, Cummings, Norton, 
Tierney, Lynch, Connolly, Cartwright, Duckworth, Kelly, 
Horsford, and Lujan Grisham.
    Also Present: Representatives Long and Jackson Lee.
    Staff Present: Alexa Armstrong, Legislative Assistant; 
Brien A. Beattie, Professional Staff Member; Melissa Beaumont, 
Assistant Clerk; Will L. Boyington, Deputy Press Secretary; 
Molly Boyl, Deputy General Counsel and Parliamentarian; 
Lawrence J. Brady, Staff Director; David Brewer, Senior 
Counsel; Sharon Casey, Senior Assistant Clerk; Steve Castor, 
General Counsel; John Cuaderes, Deputy Staff Director; Brian 
Daner, Counsel; Adam P. Fromm, Director of Member Services and 
Committee Operations; Linda Good, Chief Clerk; Tyler Grimm, 
Senior Professional Staff Member; Frederick Hill, Deputy Staff 
Director for Communications and Strategy; Christopher Hixon, 
Chief Counsel for Oversight; Michael R. Kilo, Legislative 
Assistant; Jim Lewis, Senior Policy Advisor; Mark D. Marin, 
Deputy Staff Director for Oversight; Ashok M. Pinto, Chief 
Counsel, Investigations; Andrew Rezendes, Counsel; Laura L. 
Rush, Deputy Chief Clerk; Jessica Seale, Digital Director; 
Andrew Shult, Deputy Digital Director; Jonathan J. Skladany, 
Deputy General Counsel; Katy Summerlin, Press Assistant; Peter 
Warren, Legislative Policy Director; Rebecca Watkins, 
Communications Director; Sang H. Yi, Professional Staff Member; 
Aryele Bradford, Minority Press Secretary; Jennifer Hoffman, 
Minority Communications Director; Chris Knauer, Minority Senior 
Investigator; Juan McCullum, Minority Clerk; Dave Rapallo, 
Minority Staff Director; Brandon Reavis, Minority Counsel/
Policy Advisor; Valerie Shen, Minority Counsel.
    Chairman Issa. The committee will come to order.
    The Oversight Committee exists to secure two fundamental 
principles. First, Americans have a right to know that the 
money Washington takes from them is well spent; and, second, 
Americans deserve an efficient, effective government that works 
for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers. It is our job to work 
tirelessly in partnership with Citizen Watchdogs to bring 
genuine reform to the Federal bureaucracy. This is our mission, 
and today's hearing follows one of the most important parts of 
that mission.
    With $1.5 billion spent by the Secret Service, nearly a 
billion of that spent on protection of the First Family, the 
Second Family, former Presidents and presidential candidates, 
the United States Secret Service was always considered to be 
the elite law enforcement Agency, made up of men and women who 
were highly regarded, highly respected and highly trusted. The 
country has placed great faith and trust in the Secret Service.
    The agents of the Uniformed Division, their officers and 
the Secret Service agents have a monumental task, that of 
protecting the Nation's Presidents, past, present and future. 
They do so honorably and not without considerable personal 
sacrifice. They ensure the safety of the First and Second 
Family, yes, and the safety of foreign dignitaries throughout 
Washington and, at times, around the world. They ensure the 
safety of every man and woman who enters the White House and 
accompanying buildings. But a history of misbehavior, security 
failures has clearly blemished that record.
    On September 19, Omar Gonzalez jumped the North Fence, ran 
across the White House lawn, up the steps of the North Portico 
and into the front door of the White House. He was armed with a 
3-inch serrated knife. He entered through an unlocked door, 
passed the staircase to the presidential residence and into the 
East Room of the White House.
    Ladies and gentlemen, that was the part of my opening 
statement that was changed last night when the early false 
report that, in fact, he had been apprehended just inside the 
front door was turned upside down by a revelation that, in 
fact, he penetrated much further into the White House. Secret 
Service officers only subdued him after he was clearly well 
inside the White House.
    An intruder walked in the front door of the White House, 
and that is unacceptable. Common sense tells us that there were 
a series of security failures, not an instance of praiseworthy 
restraint. Inexplicably, Omar Gonzalez breached at least five 
rings of security on September 19.
    The White House is supposed to be one of America's most 
secure facilities and, in fact, one of the world's most secure 
facilities. So how on Earth did it happen? This failure has 
once again has tested the trust of the American people in the 
Secret Service, a trust we clearly depend on to protect the 
President.
    After allowing a paparazzi-crazed reality TV star to crash 
a State Dinner, after engaging prostitutes in Cartagena, after 
excessive drinking and an agent falling asleep outside his room 
in the Netherlands and, yes, after the mishandling of the 11/
11/11 event, a gunman who sprayed bullets across the White 
House and, it is reported, caused over $100,000 in damage that 
was not properly reported in real time or understood in real 
time, it is understandable that morale at the Agency appears to 
be in decline, according to news reports.
    In light of the recent break-in, we have to ask whether the 
culture at the Secret Service and possible declining morale 
have an impact in operation, and those are some of our 
questions today. The appointment of Director Pierson brought 
new hope that the Agency would reclaim its noble image, but 
recent events have so troubled us that, in fact, we have called 
the Director here to face some tough questions.
    How could Mr. Gonzalez scale the fence? We understand that. 
That happens often. People try to scale that fence. But how is 
it that, as would ordinarily happen, agents didn't immediately 
apprehend him? How was he able to sprint 70 yards, almost the 
entire length of a football field, without being intercepted by 
guards inside the fence? Why didn't security dogs stop him in 
his tracks?
    What about the SWAT team and assault rifles--or sniper 
rifles? Why was there no guard stationed at the front door of 
the White House? And, yes, how much would it cost to lock the 
front door of the White House?
    The Secret Service must show us how there is a clear path 
back to public trust. The purpose of today's hearing is to gain 
answers to these many questions plaguing the Secret Service. 
Today we will hear from experts on both the Agency's protocol, 
foreign and domestic. But, most importantly, we will hear from 
the Secret Service Director herself on her plans to improve the 
Agency's performance.
    Americans face real danger as we serve interests abroad, 
especially those stationed at our embassies. It is a time of 
great peril. We are engaged in a battle against ISIL as we 
speak, but that is not limited to foreign soil. Americans know 
that the next attempt to take the White House may not be by a 
crazed solo knife-wielding veteran with PTSD. It could well be 
a planned attack from a terrorist organization.
    The fact is the system broke down on September 19, as it 
did when the Salahis crashed the State Dinner in 2009, as it 
did when Ortega-Hernandez successfully shot the White House on 
November 11, 2011, as it did in Cartagena when agents paid for 
prostitutes and compromised security, as it did in the 
Netherlands in 2014. We cannot further allow this.
    But, more importantly, as I said to the Director before 
today's hearing, the Secret Service relies on two important 
skills--or facts. Their skill, their capability to protect the 
President, must be at the highest level because they cannot 
succeed 99 percent because 1 percent failure is not an option.
    But they also rely on a good-faith belief by most people 
that they shouldn't even try, that this is the hardest target 
on Earth. We need to make sure that that second hardest target 
on Earth is true again both in reality and in the minds of 
anyone who might take on the Secret Service to get to the 
President or the First Family.
    And, with that, I recognize the ranking member for his 
opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    We began today's hearing with an obvious premise: No 
individual should be allowed to scale the fence of the White 
House, sprint across the North Lawn and burst into the 
residence of the First Family with a weapon. No one.
    Our goal today is also clear: To determine how this 
happened and make sure it never happens again. This is our 
watch. This recent incident, unfortunately, causes many people 
to ask whether there is a much broader problem with the Secret 
Service.
    Last night the Washington Post reported that Omar Gonzalez 
made his way into the East Room much further than the Secret 
Service previously disclosed. Another report in this weekend's 
Post about a shooting incident in 2011 raises even more 
questions about the competency and culture of this elite 
Agency. What concerns me most about this report is that agents 
said they were hesitant. Agents in this Agency said they were 
hesitant to raise security concerns with their supervisors.
    Ladies and gentlemen, something is awfully wrong with that 
picture. The Secret Service is supposed to be the most elite 
protective force in the world; yet, 4 days went by before they 
discovered that the White House had been shot seven times. 
Then, in 2012, there was the prostitution scandal in Colombia. 
Although it had little to do with tactical protection issues, 
it seriously damaged the Agency's credibility.
    The Secret Service must not only carry out its duties with 
the highest degree of excellence and effectiveness, but it also 
must maintain a reputation which matches that performance. As 
the chairman has said, much of what deters people from trying 
to pierce the protective veil of the Secret Service is the 
reputation, and that reputation must be one of excellence and 
effectiveness.
    Today's witness, Ms. Julia Pierson, was appointed as the 
Director of the Secret Service last year to help restore the 
Agency's standing. She has had a distinguished 30-year career 
with the Agency. And to her credit, she immediately ordered an 
internal review and agreed to testify.
    With respect to this most recent incident, I have key 
questions for the Director that I know are shared by many 
people across the country: Did the Secret Service have specific 
protocols for handling this type of perimeter breach? If so, 
were those protocols followed in this case? And if they were 
followed, do they need to be changed in light of what happened? 
If the protocols were not followed, why were they not followed? 
And how can we have confidence that they will be followed in 
the future?
    I also want to understand what happened prior to the 
incident. Gonzalez was arrested in Virginia 2 months earlier, 
on July 19.
    Mr. Chairman, I would like to enter into the record an 
inventory sheet that was provided to us by the Virginia State 
Police. It lists the contents of his car, which included an 
arsenal of 11 firearms, including sniper rifles and a sawed-off 
shotgun. It also----
    Chairman Issa. Without objection, the entire report will be 
placed into the record.
    Mr. Cummings. Thank you very much.
    It also included the contents of his car, which included a 
small arsenal of 11 firearms, including sniper rifles and a 
sawed-off shotgun. It also included a map of Washington, D.C., 
with ``a line drawn to the White House.''
    According to the Virginia State Police, the Bureau of 
Alcohol, Tobacco and Firearms and Explosives concluded that 
there was no information in Gonzalez's history that prohibited 
him from owning these firearms; yet, he was severely mentally 
ill and a military psychiatrist reportedly treated him for 
post-traumatic stress disorder and paranoid schizophrenia.
    Mr. Chairman, I hate to even imagine what could have 
happened if Gonzalez had been carrying a gun instead of a knife 
when he burst inside the White House. That possibility is 
extremely unsettling.
    Today our work faces two challenges. First, the Secret 
Service has not yet completed its internal review. I understand 
that the Director will provide us with a status update, but the 
final results are not yet in.
    Second, some of the information is classified; so, we 
cannot discuss it in public. The very last thing we want to do 
is give people like Gonzalez a road map for how to attack the 
President or other officials protected by the Secret Service. 
This does not mean the committee cannot obtain the information.
    The Director sent a letter on Friday offering not only to 
testify here today in the public setting, but also to provide 
all of us with a classified briefing. The chairman has now 
agreed to hold this classified session in a separate room 
directly after this hearing concludes.
    Let me close by making this very final point. This, ladies 
and gentlemen, is not a Democratic issue. This is not a 
Republican issue. This is an American issue. This is also an 
issue of national security.
    The vast majority of men who serve and women who serve in 
the Secret Service are dedicated, experienced public servants 
who are willing to lay down their lives for their country. And 
on behalf of a grateful Congress and a grateful Nation, I thank 
every one of them. They have an extremely difficult job and, 
like others in similar positions, they are required to make 
instant life or death decisions in extremely stressful 
situations.
    Last year, for example, the Capitol Police shot and killed 
an unarmed woman with a 1-year-old girl in the backseat of her 
car. Some praised their quick responses. Others criticized 
their actions. But they acted based upon their first-hand 
experience right here in the Capitol when another deranged 
individual burst through the doors and killed two Capitol 
Police officers.
    The Secret Service has a high-profile job, but it is 
critically important and it requires accountability so that the 
spotlight is rightly on their actions today.
    Mr. Chairman, I look forward to the testimony. I thank you 
for bringing us back for this hearing. And I look forward to 
the questions that I have already raised and others being 
answered.
    With that, I yield back.
    Chairman Issa. Thank you, Mr. Cummings.
    Chairman Issa. I now recognize the gentleman from Utah, Mr. 
Chaffetz, the Subcommittee Chairman on National Security, for 
his opening statement.
    Mr. Chaffetz. I thank the chairman, and I also thank the 
ranking member, Mr. Cummings, and his statement. He is 
absolutely right: This is not a Republican issue, a Democratic 
issue. This is an American issue.
    I don't want it to be the political football. But we in the 
United States of America are self-critical. One of the beauties 
of our Nation is we do hold ourselves accountable. And so I 
appreciate, Chairman, you holding this hearing.
    We have wonderful men and women who serve this Nation. They 
do it patriotically. They do it--they put their lives on the 
line. They walk away from their families and their spouses. 
They don't know what today is going to bring them. And they do 
so in a very, very honorable way, and we thank them for their 
service and their dedication.
    But I have serious concerns about the current leadership, I 
have concerns about training, and I have concerns about 
protocol. And that is what I want to get at today.
    Since the current Director has taken on this role, it is 
also important to note that she was the Chief of Staff since 
2008. And so over the last several years, it is not good enough 
to just simply excuse this as something we were trying to clean 
up before because she was the Chief of Staff starting in 2008. 
I am concerned about her leadership and the mixed messages that 
are sent to those who serve in the Secret Service.
    For instance, after the fence-jumping incident, the Secret 
Service was very quickly--very quick to put out a statement 
that honored the officers and agents for their ``tremendous 
restraint.'' Tremendous restraint is not what we're looking 
for. Tremendous restraint is not the goal and the objective. It 
sends a very mixed message.
    The message should be overwhelming force. If one person can 
hop that wall--hop that fence and run unimpeded all the way 
into an open door at the White House, don't praise them for 
tremendous restraint. That is not the goal. That is not what we 
are looking for.
    If there were alarms that were inside the door that were 
muted or silenced, I want to know why that is. Who makes that 
call and decision? That, to me, is a leadership decision.
    I think at some point we need to go back and review the 
2013 Inspector General's report, which actually said there is 
not a problem here, but has over 1,000 indications of security 
concerns.
    And the opening statements say we have to be 100 percent 
right all the time. Everybody agrees with that. And, yet, the 
Inspector General's report is pretty damning when it comes and 
looks at what the agents are feeling like happens within the 
Agency itself.
    Very concerned about the 2011 incident. I am thankful for 
the Washington Post and Carol Leonnig and what she did in the 
reporting there.
    As best I can tell from the spot report, as well as the 
article in the Washington Post, the event in 2011 where eight 
shots were fired at the White House, you had no less than five 
Secret Service agents report that they thought they heard shots 
fired. You had somebody on Twitter report that they saw 
somebody shoot at the White House. There were two people in two 
different shuttle vans who reported that they saw somebody 
firing a weapon at the White House. Blocks away, moments later, 
somebody crashes a vehicle. An assault rifle is in there. And, 
yet, the--and the Secret Service is on the scene and nobody 
ties those two together. I don't understand that.
    Later the Arlington County Police actually detained this 
person. He had been positively identified based on what was--
that vehicle that was there, but nobody put it into the system 
to put him on the watch list. Consequently, when the Arlington 
County Police pull him over, they take his picture and they let 
him go. And it was only the Pennsylvania police 5 days later 
that actually find this person. Now he's serving some 25 years 
in jail, but he could have done a lot more damage.
    If the Director is truly going to take full responsibility, 
I think your opening statement and the goals you have should 
also talk about leadership. Because, as I talk to the 
whistleblowers at the Secret Service and others, they are 
concerned about leadership.
    I am also concerned about training. As I look at the 2015 
budget request from the White House, on page 39, there is a 
basic class totals. And I want to run through these numbers 
because it is important on the training aspect.
    Under Special Agent Basic Classes, in 2009, there were 
eight classes; in 2010, there were eight classes; in 2011, 
there were five classes; 2012, there were no classes; in 2013, 
there was one class.
    In the Uniformed Division Basic Class, 2009, 11; 2010, 
there were 11 classes; in 2011, there were six classes; then in 
2012, there was one class; 2013, one class.
    And you look at the budget line appropriation for this, it 
didn't go down. It is maintained basically the same. Why did 
that training diminish?
    And then, finally, Mr. Chairman, I worry about protocol. 
Again, I mention tremendous restraint is what the Secret 
Service touted. That is not the objective. If you project 
weakness, it invites attacks. We want to see overwhelming 
force. If a would-be intruder cannot be stopped by a dog or 
intercepted by a person, perhaps more lethal force is 
necessary.
    And I want those Secret Service agents and officers to know 
at least this Member of Congress has their back. Don't let 
somebody get close to the President. Don't let somebody get 
close to his family. Don't let them get in the White House 
ever. And if they have to take action that is lethal, I will 
have their back.
    In this day and age of ISIL and terrorists and IEDs and 
dirty bombs, we don't know what's going on underneath that 
person's clothing. If they want to penetrate that, they need to 
know that they are going to perhaps be killed. That is the 
message we should be sending every single time. And that is the 
kind of Secret Service that I expect.
    I thank them again for their service, their dedication. We 
love them. We care for them. But we need better leadership. It 
is not happening.
    I yield back.
    Chairman Issa. Thank the gentleman.
    Chairman Issa. We now recognize the gentlelady from the 
District of Columbia, Ms. Norton, for her opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman. Thank you 
for this hearing.
    My respect for the Secret Service goes back to when I was 
growing up as a child in the District of Columbia and continues 
profoundly to this very day.
    But today we must ask--recent events call for an--recent 
unprecedented events call for an unprecedented response, first, 
an increasing number of White House jumpers, including the most 
recent this month who was able to get deep into the interior of 
the White House; before that, in 2011, multiple shots into the 
living quarters of the First Family discovered only 4 days 
later not by Secret Service investigation, but by White House 
staff.
    Beyond these failures, in the core mission of the Secret 
Service to protect the White House and the First Family is an 
unsettling failure to disclose, perhaps even understand, what 
has occurred or to promptly investigate.
    Together, this combination of failures suggests strongly 
that the time is ripe for a 21st century makeover of the Secret 
Service. I do not regard this matter as a mere question of 
personnel. I believe it goes far deeper than that. Moreover, 
the stunning events have occurred during a period when the 
United States and, by definition, the White House and even the 
President are being targeted by domestic and international 
terrorists.
    According to threat assessments, this President has had 
three times as many threats as his predecessors. Just as 
troubling have been indications of unwarranted secrecy in the 
Secret Service. The Secret Service is not a secret society. If 
there is a willing avoidance of needed transparency, that in 
itself poses a danger to the White House.
    For example, when noise is heard that some believe could be 
gunfire at the White House, others believe is automobile 
backfire, and still others believe is gun--gun--gang gunfire, 
isn't it the job of the Secret Service to presume, presume, 
such a sound is gunfire until an immediate investigation shows 
it was not?
    When line officers close to the sound have to become 
whistleblowers, has active suppression of information become 
yet another threat to the White House? Worse, do such failures 
show that some in the Secret Service are in denial of danger, 
perhaps posing the greatest risk to the White House?
    Particularly troubling, in light of such unanswered 
questions would be the rush to quick fixes, such as suppression 
of public access to the area around the White House without a 
thorough investigation. The White House and Lafayette Park, 
just like the Congress, are First Amendment areas, and the 
public must be allowed to express their grievances as they 
always have been.
    In light of the seriousness of recent breaches, the 
investigation at the first instance by the Department of 
Homeland Security should go well beyond the details of these 
events. They are merely the most recent raw data for a top-to-
bottom investigation of Secret Service operations at the White 
House. This is not a mere question of personnel. Changing 
people at the top or in between will not solve the issue I 
think we are presented.
    We must learn whether today's Secret Service, as 
structured, for example, could stop five or six fence-jumpers 
jumping at the same time, intent on harm to the White House and 
the President, not just a demented war vet, who even alone 
might have succeeded. No scenario should be off the table for 
the needed 21st century study of Secret Service operations in 
the age of terrorism.
    Director Pierson has shown accomplishments in her 18 months 
as director. The heroism of the Secret Service is beyond 
debate. The White House intruder was brought down, after all, 
by an agent, but the White House and the President have been 
thrust into a new era of danger.
    The Secret Service should welcome an outside investigation 
to assure that the necessary resources and the expert backup 
and the structure for the 21st century is necessary for it to 
do its job.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentlelady.
    Chairman Issa. Members may have 7 days to submit opening 
statements for the record.
    Chairman Issa. I now ask unanimous consent that our 
colleague, the gentlelady from Texas, Ms. Jackson Lee, be 
allowed to participate in today's hearing. Without objection, 
so ordered.
    Additionally, I ask unanimous consent that our colleague, 
the gentleman from Missouri, Mr. Long, be allowed to 
participate in today's hearing. Without objection, so ordered.
    We now welcome our panel of witnesses. The Honorable Julia 
Pierson is the Director of the United States Secret Service. 
The Honorable Ralph Basham is the former Director of the United 
States Secret Service and currently a partner at Command 
Consulting Group. The Honorable Todd Keil is the former 
Assistant Secretary for Infrastructure Protection at United 
States Department of Homeland Security and is currently a 
senior advisor to TorchStone Page.
    Pursuant to the committee's rules, I would ask that you, 
please all rise and raise your right hand to take the oath.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth and nothing 
but the truth?
    Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow sufficient time for discussion and 
questions, please limit your testimony to 5 minutes. Your 
entire opening statement will be made a permanent part of the 
record.
    And, with that, Director Pierson is recognized.

                       WITNESS STATEMENTS

                STATEMENT OF HON. JULIA PIERSON

    Ms. Pierson. Good morning, Chairman Issa, Ranking Member 
Cummings, distinguished Members of the committee.
    I am here today to address the concern that we all share 
following the incident of September 19 at the White House. It 
is clear that our security plan was not properly executed. This 
is unacceptable. I take full responsibility, and I will make 
sure that it does not happen again.
    As director, my primary concern is ensuring the operational 
readiness of my workforce. I have been aggressive in addressing 
our human capital challenges, ensuring professionalism, and 
developing leaders. Through active engagement with the Agency's 
supervisors and employees, I have made it clear my expectations 
for professionalism and personal accountability.
    Much of what we do to protect the President and the White 
House involves information that is highly sensitive or 
classified; so, I'll be limited in what I can say in a public 
hearing.
    On September 19, a man scaled the North Fence of the White 
House, crossed the lawn while ignoring verbal commands from 
Uniformed Division officers, entered through the front door and 
was subsequently arrested on the State Floor.
    Immediately that night I ordered enhancements around the 
complex and, in consultation with the Secretary, initiated a 
comprehensive review of the incident and protective measures to 
ensure this will not happen again.
    The review began with a physical assessment of the site and 
personnel interviews. All decisions made that evening are being 
evaluated, including those on tactics and use of force, in 
light of the totality of the circumstances confronting those 
officers.
    I am committed to the following: A complete and thorough 
investigation of the facts of this incident; a complete and 
thorough review of all policies, procedures, protocols in place 
that govern the security of the White House complex and a 
response to this incident; and, based on the results of that 
review, a coordinated, informed effort to make any and all 
adjustments, to include training and personnel actions that are 
necessary to properly ensure the safety and security of the 
President and the First Family and the White House.
    The White House emergency action plans are multifaceted and 
tailored to each threat. The Secret Service has apprehended 16 
individuals who have jumped the fence over the last 5 years, 
including six this year alone. In fact, on September 11, 2014, 
a week prior to the events that are the subject of today's 
hearing, officers apprehended an individual seconds after he 
scaled the fence and ran onto the grounds.
    In addition to fence-jumpers, over the last 5 years, 
hundreds of individuals have approached the White House 
perimeter, verbalizing threats to our protectees or acting in a 
suspicious manner. Officers and agents routinely leverage their 
experience and training to make decisions to either arrest or 
transfer these individuals to appropriate facilities for mental 
health evaluations.
    Protecting the White House complex is a challenge in any 
threat environment. In addition to being a national icon, the 
complex consists of public spaces, executive offices where our 
Nation's highest leaders congregate, and the private residence 
of the President and First Family. Ensuring the safety of all 
who live and work in the White House while preserving access to 
the millions of visitors each year requires a unique balance.
    In this environment, we are never satisfied by the status 
quo and we are constantly reviewing our security protocols. 
With the help of Congress, we have enhanced our protective 
countermeasures and security features at the White House.
    In the past 5 years, the Secret Service has upgraded 
perimeter cameras, officer booths, vehicle gates and command 
and control systems, along with enhancements to highly 
classified programs that have made the President and the 
complex more secure.
    We have generated many of these new security enhancements 
in direct response to intelligence information on known and 
emerging terrorist tactics. I thank the Congress for their 
support in this time of constrained resources.
    Beyond technology, approximately 75 percent of our annual 
budget is dedicated to payroll costs, which support our most 
valuable asset, our people. The Agency relies heavily on 
experience, training and judgment of our men and women to make 
critical split-second decisions.
    With respect to the many questions that have been raised 
and the opinions proffered in the wake of the September 19 
incident, I do not want to get ahead of the investigation that 
is underway.
    The Secret Service has had its share of challenges in 
recent years and some during my tenure. I intend to lead the 
Secret Service through these challenges and restore our 
Agency's reputation to the level of excellence that the 
American public expects. As Director, I am proud of the Secret 
Service's workforce who serve each day with honor and 
distinction.
    Last week our employees successfully implemented security 
operations in conjunction with the 69th United Nations General 
Assembly in New York City, where they protected the President 
and more than 140 world leaders.
    Over the last 12 months, they have completed over 5,600 
successful protective missions. It is my responsibility to 
ensure that these men and women have the resources and training 
that they need to succeed.
    As Director, I have worked with the Department of Homeland 
Security, with Secretary Johnson, the administration and 
Congress, to include Members of this committee, to develop a 
comprehensive, forward-leaning strategy to further enhance the 
Secret Service's workforce and operational capabilities. We 
remain dedicated and committed to protecting the President, the 
First Family and the sanctity of the White House.
    I thank the committee today for the opportunity to appear, 
and I look forward to your questions.
    Chairman Issa. Thank you.
    [Prepared statement of Ms. Pierson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Mr. Basham.

               STATEMENT OF HON. W. RALPH BASHAM

    Mr. Basham. Mr. Chairman, Ranking Member Cummings----
    Chairman Issa. Could you turn the mic on and pull it a 
little closer, please.
    Mr. Basham. Mr. Chairman----
    Chairman Issa. Thank you.
    Mr. Basham. --Ranking Member Cummings, distinguished 
Members of the committee, thank you for the opportunity to 
share my perspective today on the recent events of the White 
House and, more broadly, on the state of an Agency I care a 
great deal about, the United States Secret Service.
    Let me say at the outset that I look forward to discussing 
how the recent incident highlights some of the challenges the 
Secret Service has long faced at the White House complex in 
balancing desired levels of security along with the functional 
needs of those who work and live in that complex, the practical 
realities of the thriving city it resides within, and the 
historic symbolism and imagery of the people's house.
    The incident exposes certain steps Secret Service got right 
and those they got wrong and will identify corrective measures 
and additional resources that can be considered. However, it 
also poses some difficult questions for all of us on issues, 
like the use of lethal force and our tolerance for additional 
fortifications around the White House complex. Those questions 
do not have easy answers, and the long-term potential 
consequences must be thought through.
    Let us also be mindful that, while our analysis of actions 
and the shortcomings has the benefit of days of hindsight and 
consideration, anyone who has served on a protective detail 
knows the decision-making in an actual event with life and 
death consequences is measured in milliseconds. Those who were 
on duty during this incident had a much harder job in trying to 
get it right than we do here today.
    My perspective is one that is shaped by a career of over 30 
years in the Secret Service, but also from my experiences at 
the head of three other operational components within the 
Department of Homeland Security and now from 5 years in the 
private sector, where I remain deeply involved in the Homeland 
Security issues and the implementation of international best 
practices as it relates to the protection of individuals and 
high-value assets.
    I had the honor of joining the Secret Service in 1971, and 
I enjoyed a challenging and very interesting career, including 
being on protective details of Henry Kissinger, Vice President 
Bush, Quayle, Gore, and countless foreign Heads of State and 
foreign dignitaries. Later, President Clinton appointed me as 
the Director of the Federal Law Enforcement Training Center. 
And, eventually, I returned to Washington after the September 
11 attacks to help start up the Transportation Security 
Administration.
    I rejoined the Secret Service in 2003, when I was appointed 
Director, where I was honored to serve for over 3 years. I 
subsequently was appointed by President Bush to serve as the 
Commissioner of the United States Customs and Border 
Protection, the largest law enforcement agency in the United 
States. I remained in that position into the Obama 
Administration at the request of Secretary Napolitano.
    Upon retiring from the government in 2009, I helped found 
the security company that works for private-sector and 
government clients. Therefore, the viewpoint that I will share 
on the subject before the committee today is informed largely 
by my experience with the Secret Service, but with the benefit 
of having worked for and with many other elite security 
organizations around the world for almost 40 years.
    Let me commend the Members of this committee for the time 
and interest you are showing on this subject, especially at 
this juncture when there are so many pressing security concerns 
to which our government must pay attention.
    It goes without saying that the recent incident with the 
individual jumping the White House fence, running across the 
North Lawn and making it inside the White House is 
unprecedented and unacceptable. This is not just my view, but, 
as the Director has stated, it is her view and other senior 
management of that Agency as well as the rank and file.
    Again, perspective is critically important in this 
incident. We could easily be sitting here today discussing why 
an Iraq veteran possibly suffering through post-traumatic 
stress disorder, armed with only a pocketknife, was shot dead 
on the North Lawn when the President and First Family were not 
on the property.
    At the Secret Service, some of the split-second decisions 
made during this latest incident will thoroughly be examined, 
procedures will be debated, training will be altered, and, in 
the end, the Secret Service will learn valuable lessons, as 
they have been doing throughout their history, of protecting 
the President and his family.
    This is an Agency which has never been reluctant to ``red 
team'' incidents, those of high consequences and those of less 
importance, to find opportunities for improvement in the way it 
conducts its business, the way it trains its people and the 
tools it uses to accomplish its incredibly important mission.
    I can tell you that my confidence remains extremely high 
that this aspect of the Service's culture remains as strong 
today as it has ever been. And I know that the Agency will 
learn valuable lessons that it can apply immediately to improve 
security at the White House and in other settings.
    I would urge the committee to keep in mind that--when 
examining any incidents, that the broader context in which the 
Secret Service operates is not one which is valued on security 
alone.
    The Service has to ensure that the President, other 
protectees, and facilities in which they work and live are safe 
and secure, but they do so in the context of important American 
values, like freedom and openness, and in close coordination, 
cooperation and almost always after negotiation with a myriad 
of other stakeholders and decision-makers who have diverse 
priorities, responsibilities and viewpoints.
    And this dynamic is, in fact, more true when it comes to 
the area surrounding the White House complex than in any other. 
As much as I may have wished it when I was the Director, the 
Secret Service absolutely cannot act unilaterally when it comes 
to almost any security feature in and around the White House.
    Stakeholders with a voice include the government of the 
District of Columbia, as Ms. Norton would recognize, the 
National Park Service, White House Historical Society, GSA and 
others, who all provide input into any architectural changes 
and improvements, new infrastructure or changes in appearance.
    A prime example of this is the closure of Pennsylvania 
Avenue in front of the White House to vehicular traffic, a 
security imperative, for the Service--from the Service's 
perspective, for many years that was politically impossible 
until the Oklahoma City bombing in 1995 made the impact to 
have--a vehicle-borne explosive could have on a government 
building, no less a 200-year-old sandstone mansion made it very 
vivid and undeniable. Even then, it was not until 2004, when I 
was director, that we were able to complete the project to 
permanently converting this portion of the road into a 
pedestrian mall.
    I might add, to this day, there are those who believe the 
avenue should be reopened in spite of the overwhelming and 
irrefutable evidence of the extreme risk such a move would put 
the First Family and hundreds of employees who work there.
    I can also tell you that there have been numerous studies 
conducted over the years by the Secret Service and at the 
Secret Service's request to test and explore options to address 
vulnerabilities of concern at the White House complex, 
motivated, in part, by concerns about the inadequacy of the 
current White House fence as an outer perimeter for a complex 
giving the ability of an individual or group of individuals to 
quickly scale it and be on the White House grounds.
    While notable improvements have been made, especially over 
the last decade, to the security of the White House complex, 
many unnoticeable to the public, there have been several 
priority improvements desired by the Service that have not been 
possible in light of other considerations or given the level of 
funding provided to the Agency for such capital improvements.
    Let me be clear. I am not in any way trivializing the 
importance of these other considerations. As a security 
professional, there have almost always--there almost always 
being things that I would like to do for security purposes, but 
could not, given the factors or--and limited funding. And that 
is always going to be the case.
    We must always keep in mind that the White House, like the 
United States Capitol, is an important symbol for the American 
people. It is obviously critically important that it be kept 
safe, but that security must be accomplished in a way that does 
not jeopardize the very values that we seek to protect and that 
these buildings themselves indeed symbolize. I ask that you 
keep this in context when looking at this particular incident 
and examining how something could have happened or how it could 
be and should be prevented in the future.
    Finally, I want to make sure the committee is aware of 
another fundamental principle on which the Secret Service, in 
fact, any good security organization's protective methodology 
is based. In the military, it is called defense in depth. In 
law enforcement, it is usually referred to as multilayered 
security.
    When it comes to protecting the President or the White 
House complex, there are many layers of protection through 
which an attacker must travel in order to achieve their desired 
objectives and to pose an ultimate threat to the person or 
thing that is the target.
    A breach of the fence and the entry of an individual into 
the White House is undeniably----
    Chairman Issa. Mr. Basham, could you summarize. You're at 
twice 5 minutes.
    Mr. Basham. Oh. I apologize.
    Then, having said that, Mr. Chairman, I am ready to take 
questions.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Basham follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Mr. Keil.

                   STATEMENT OF TODD M. KEIL

    Mr. Keil. Thank you, Chairman Issa, Ranking Member Cummings 
and distinguished Members of the committee for inviting me to 
testify today regarding the U.S. Secret Service's security 
protocols.
    I believe I can offer a unique perspective on protecting 
high-visibility, targeted facilities after spending nearly 23 
years as a special agent with the U.S. Department of State's 
Diplomatic Security Service, with responsibility for developing 
and implementing security programs for U.S. personnel, 
embassies, consulates and other official facilities around the 
world. I have also spent numerous years in the private sector, 
working in and advising corporate security operations and 
management.
    Additionally, from late 2009 until early 2012, I was the 
Assistant Secretary for Infrastructure Protection at the 
Department of Homeland Security. As the Assistant Secretary, I 
was responsible for public-private partnerships and a 
regulatory program to protect the critical assets of the United 
States.
    Last year I was also selected and served on the Benghazi 
Accountability Review Board recommended Independent Panel on 
Best Practices, which was established to identify best 
practices from across U.S. government agencies, the private 
sector, nongovernmental organizations and allied countries on 
management and operations in high-threat, high-risk locations 
globally.
    Mr. Chairman, the United States Secret Service has a proud 
history of almost 150 years protecting the most important 
government leaders of our country, the White House and other 
official facilities, and conducting criminal investigations to 
ensure the integrity of our currency, banking systems and 
financial communications and cybersecurity.
    The men and women of the Secret Service are on the 
frontline every day, keeping our Nation safe, and they do a 
tremendous job. The agents and officers of the Secret Service 
are constantly in the spotlight, especially serving at the 
White House, one of the most prominent symbols of our Nation's 
strength and democracy, and we owe them a debt of gratitude for 
their service to our country.
    However, every organization, even those with a century and 
a half of history, must be willing to learn. Those who wish to 
do us harm, from an unpredictable, lone, possibly mentally 
unstable person, to an organized terror group intent on 
unleashing a calculated attack, typically have the element of 
surprise.
    Our country today faces a very dynamic, fluid and evolving 
threat environment in which the aggressors have become very 
patient, resilient and determined. We have to be better than 
they are.
    To counter this threat, security, intelligence and law 
enforcement agencies like the Secret Service must have solid 
strategic and tactical management and leadership, focus on 
their primary mission, and provide their people with the best 
training and resources and, possibly most important, be ready 
to act aggressively and appropriately when faced with a threat. 
The Secret Service, like any successful organization, must be 
willing to continuously evolve and improve to adapt the Agency 
ahead of the threat curve.
    Throughout my career, I have found that government agencies 
and private-sector organizations who are at the top of their 
game become complacent. Time tends to annoyingly erode and 
blunt the pointy end of the spear, and organizations and their 
management teams rely on, ``This is the way we've always done 
it'' or, ``We know how to do it best.'' So they are unwilling 
or unable to change.
    The Secret Service, I believe, would benefit from expanded 
use of new and emerging technologies to assist with its 
protective security responsibilities. In fact, when I was at 
the Department of Homeland Security, the Secret Service 
partnered with my office and the DHS Office of Science and 
Technology to research and develop cutting-edge technology for 
use at major events in the United States. Now is the time for 
the Department of Homeland Security to bring some of those 
technological enhancements out of the lab and expand their use 
in the Secret Service tool kit.
    In addition to emerging technology, management and 
leadership of an organization must adapt, change and improve. 
Policies and procedures and deployment of personnel and 
resources should be under constant scrutiny and exercised based 
on real-world scenarios. The officers and agents of the Secret 
Service are some of the best this country has to offer, and 
they deserve this strategic and tactical leadership to match.
    All too often, Mr. Chairman, after something has gone 
wrong, the cry is simply for more money, more personnel, and a 
larger physical setback. This is rarely the correct answer. 
Absent a comprehensive understanding of the fundamental issues 
that led to systemic failures, throwing more money and people 
at the problem will only exacerbate existing management 
weaknesses and compound and magnify, rather than correct, 
management challenges.
    Internal reviews post-incident are typical in the U.S. 
government from agency to agency. But from my experience, these 
reviews are impacted by intentional or unintentional personal 
and professional bias and are often informed by the same agency 
cultural and management gaps that may have been a contributing 
factor in the original incident.
    The Department of Homeland Security and the Secret Service 
now have a unique opportunity and critical moment in time to 
obtain an unbiased, independent, top-to-bottom review, focusing 
on the Service's management and policies and procedures related 
to the incident on September 19 and other similar incidents.
    I strongly recommend that the Secretary of Homeland 
Security appoint a panel of external independent experts to 
conduct this review, and this group should be tasked with 
providing advice, guidance and formal recommendations to the 
DHS and the Secret Service. In fact, Mr. Chairman, the panel I 
was on on Benghazi was chaired by former Secret Service 
Director Mark Sullivan.
    Mr. Chairman, throughout my career, I have always been 
proud to work side by side with my Secret Service colleagues at 
every level in the Agency. The United States Secret Service is 
a recognized world-class organization, and I am confident they 
will learn from this most recent and related incidents and 
innovate, strengthen and improve as they keep our country and 
leaders safe.
    Thank you, Mr. Chairman and committee Members. And I am 
happy to answer any questions.
    Chairman Issa. Thank you, Mr. Keil.
    [Prepared statement of Mr. Keil follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. I'll recognize myself now.
    And I think the first question--if you can put out the map 
of the White House up there. The first question, Director--if 
you look at the lower portion, the first question the American 
people want to know was: Is there a crash button? And had it 
been pushed, would it have locked the front door of what's 
marked as the ``Entrance Hall''?
    Ms. Pierson. The front door at the time did not have an 
automatic locking mechanism. It required an individual to hand-
lock the door.
    Chairman Issa. Okay. So we have an automated system that 
can lock down the White House. $800 million a year. Millions of 
dollars more during your tenure each year than the President's 
request. And that door was unlocked with no one standing at it 
when Mr. Gonzalez came through it. Is that correct?
    Ms. Pierson. The door was unlocked at the time of Mr. 
Gonzalez's entry. That is correct.
    Chairman Issa. Okay. And earlier there was a report and in 
the indictment of Mr. Gonzalez that he was apprehended at the 
entrance hall.
    Isn't it true today that we understand that is not true, he 
was actually apprehended at the Green Room? Is that correct?
    Ms. Pierson. If I may clarify my first answer, the front 
door actually consists of two doors. There is an outer door, 
which is a glass--almost described as a storm door, and an 
inner door, which would be a wood, ornamental, historic door. 
The outer door, the glass storm door, was not locked. The 
internal wood door was in the process of being hand-locked.
    Chairman Issa. Okay. Bottom line is automated locking is a 
capability within the White House, but not at that entrance at 
that time?
    Ms. Pierson. Not at that time, but has since been installed 
and is effective today.
    Chairman Issa. We learn from our mistakes.
    The second question: Your Agency previously had reported 
and an indictment against Mr. Gonzalez asserted that he was 
arrested in that entry area.
    Isn't it true that he actually penetrated the Cross Hall, 
the East Room and, in fact, was arrested in the vicinity of the 
Green Room?
    Ms. Pierson. Referring to your map on the wall----
    Chairman Issa. Yes.
    Ms. Pierson. --as I have been briefed, the--Mr. Gonzalez 
entered the front double doors----
    Chairman Issa. Ma'am, I want a short answer. I have very 
little time.
    Was he, in fact--the Federal complaint said he was, in 
fact, apprehended in one place.
    Isn't it true he was apprehended further into the White 
House?
    Ms. Pierson. As Mr. Gonzalez entered the door, he knocked 
back the officer that was standing at the doorway. The officer 
then engaged Mr. Gonzalez. They crossed the east Entrance Hall 
together, made the left turn down the Cross Hall. They stepped 
momentarily into the East Room.
    Another officer rendered aid. And he was placed on the 
ground on the carpet and handcuffed on the Cross Hall just 
outside of the Green Room. There is no indication at this 
time----
    Chairman Issa. Okay. So, in fact, the Federal complaint and 
the earlier reports were not accurate. Is that correct? Yes or 
no, please.
    Ms. Pierson. I think the original complaint is accurate 
that Mr. Gonzalez scaled the fence----
    Chairman Issa. Ma'am. Ma'am, hold it. Hold it. I have very 
little time, and I am not--the American people want to know is 
the President safe. I want to know if we can rely on reports 
from your Agency.
    Now, going back to Mr. Hernandez, during your watch not as 
Director, but as Chief of Staff to the Director, is it true 
that, in fact, as reported, agents falsely assumed that they 
were not gunshots when they were gunshots, that, in fact, there 
were stand-down orders to people who had already pulled 
shotguns out, that, in fact, the bullets were not discovered to 
have hit the White House in real time within a 24-hour-or-
greater period by the Secret Service? Yes or no, please.
    Ms. Pierson. Mr. Chairman, you're referring to the Ortega 
shooting that----
    Chairman Issa. The--yes.
    Ms. Pierson. --occurred in November----
    Chairman Issa. Ortega-Hernandez, if I remember.
    Ms. Pierson. --2011?
    Chairman Issa. Yes.
    Ms. Pierson. At that time, it is my understanding that 
there was reports of shots being fired in proximity to 
Constitution Avenue----
    Chairman Issa. Ma'am, ma'am, I--ma'am, ma'am, this was----
    Ms. Pierson. --by the United States Secret Service.
    Chairman Issa. No. Stop, please.
    I want to be considerate to you. You have a hard job. But 
you head an agency whose morale has gone down. It is lower than 
other comparable Federal agencies. It has had a series of 
embarrassments. We are going to leave the embarrassments out. 
We've had two cases in which the reporting is evolving.
    Only last night did the public learn that, in fact, it was 
far worse, or at least somewhat worse, on September 19th. Only 
recently has it been revealed--and you said you wanted to 
correct the record. The Washington Post makes it clear, from 
what I read, that, in fact, on November 11th of 2011, shots 
were fired, the assailant left, while, in fact, the Secret 
Service supervisor shut down the response of people who 
believed, rightfully, there had been shots fired. And, in fact, 
the follow-up did not discover the damage to the White House 
and the actual shots in realtime.
    Additionally, Mr. Ortega--``Ortega-Hernandez'' is the way I 
have it written--would not have been apprehended except that he 
had a car accident. And even when he was, it was not 
immediately linked to his criminal activity.
    That, in fact, the system at the White House did not detect 
the actual shots fired and begin the pursuit of somebody who 
had provided lethal force against the facility of the White 
House; is that correct? You were chief of staff at the time. Is 
that roughly correct?
    And if it isn't, I will allow you whatever time you need to 
properly explain what really happened on November 11th, 2011, 
so the American people can understand that September 19th is 
not the first time there has been considerable lapse, as I see 
it, and, in fact, during a long period of time, during your 
chief of staff time, now during your director time, we have had 
the kinds of things that we should be concerned about for 
protecting the President.
    So, please tell us, in whatever time you need, about 
November 11th, 2011, where The Washington Post is right or 
wrong. This is your chance.
    Ms. Pierson. Thank you, Mr. Chairman.
    As you're aware, my assignment as chief of staff----
    Chairman Issa. Could you get the microphone a little 
closer, please?
    Ms. Pierson. Certainly.
    Mr. Chairman, thank you very much.
    As you're aware, in 2008, my assignment with the United 
States Secret Service was chief of staff. My primary 
responsibilities at that time were business transformation and 
IT transformation for the organization. My focus was on the 
business operations of the organization.
    To my knowledge and based on the briefings that I have 
received of this 3-year-old investigation that occurred in 
November of 2011 that appeared in The Washington Post on 
Sunday--I had also had been aware that Representative Chaffetz 
had asked for a data inquiry. And we responded back to the 
committee on September 12th and provided him detailed 
information of the Secret Service's activities on that weekend.
    Shots were reported by the United States Secret Service 
officers in area of Constitution Avenue and 15th. There were 
witness accounts of a black vehicle that had fired shots. There 
was confusion at the time by the part of the witnesses as to 
what they had witnessed and what they had saw. Several of those 
witnesses put out Twitter accounts of what they had witnessed. 
They were subsequently located and interviewed and recanted 
those statements.
    The actual shorts that were fired in proximity to 
Constitution Avenue and 15th, the vehicle sped away and went 
westbound on Constitution, erratically driving, and struck a 
lightpost in the area of 23rd and Constitution. Mr. Ortega then 
fled the vehicle.
    Park Police officers and Uniformed Division officers 
ultimately responded to the scene, where the vehicle was left 
with the AK-47 in the front seat. Park Police has jurisdiction 
over the traffic accident and assumed responsibility for the 
initial phases of the investigation.
    Chairman Issa. Ma'am, I'm going to give you all the time 
you need--and thank the ranking member. But the answer is: 
Where are the inconsistencies with what we now know from the 
Washington Post? You said that they got the story wrong, they 
were misstating it, they were mischaracterizing it. I'd like to 
hear the inconsistencies.
    So far, you're just corroborating that, in fact, the 
understanding of the series of failures in realtime to protect 
the White House are, in fact, correct, according to The 
Washington Post. So please tell us where they are not correct, 
please.
    Ms. Pierson. Throughout the course of this, there was a 
command post established down at Constitution Avenue and 23rd 
Street. Metropolitan Police Department, the U.S. Park Police, 
the United States Secret Service were there attempting to 
resolve or understand from the witness accounts what had 
happened on Constitution Avenue.
    Back at the White House, individuals had heard what they 
believed to be shots. The Secret Service, according to the 
records that I have been able to locate on this 3-year-old 
investigation, did response properly. The emergency response 
teams and other officers did a protective sweep of the area to 
make sure that we did not have any intruders, to make sure that 
there were not any injuries and obvious signs of anything that 
had been damaged.
    Further investigation with the Park Police, they were 
unable to resolve at that time as to whether or not these were 
shots being fired at other vehicles or shots being fired at the 
White House. That took some time to understand.
    It wasn't until the Usher's Office was preparing for the 
return of the President and First Family--or the President and 
the First Lady that they identified damage on the Truman 
Balcony. That led to further investigation, and that led to us 
contacting the Federal Bureau of Investigation to initiate 
their full investigation.
    Chairman Issa. Thank you.
    Mr. Cummings, I want to thank you for your understanding 
and just relate something that you and I discussed yesterday, 
if I may.
    In Washington, D.C., and around the country, there are a 
number of systems that we all know--and Baltimore, I believe, 
has it too--that they're basically microphones that hear 
gunshots, can identify the direction, can quickly without human 
intervention figure out whether or not a real shot has been 
fired, confirm it, and often give a very accurate direction. 
That type of technology isn't so odd that we don't see it in 
our cities. And I think that's the reason I went on so long 
with this question.
    Ms. Norton, I know, knows this. The District does have a 
sophisticated system. And I think the committee is going to 
want to make sure that not only does the White House have a 
higher level of awareness of this system but that the 
District's system be enhanced, if necessary, to make sure that 
something like this never happens again.
    And I thank the gentleman for his patience.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Director Pierson, I have thought about all of this long and 
hard, and I think my major concern goes to the culture. It is 
very disturbing to know that Secret Service agents in the most 
elite protective agency in the world feel more comfortable, 
apparently, from what I'm hearing, coming to members of this 
committee and telling things than coming to you and members in 
the agency.
    That, I'm telling you, when I boil all of this down, that, 
to me, is dangerous. It has to go against morale. I don't even 
see how good decisions can be made if your own people don't 
feel a level of comfort that--or they feel fear that they are 
going to be able to talk about the things that concern them.
    And I just want to go through some questions, and I want to 
give you a chance to address that. Because, to me, when all the 
dust settles, that's a problem.
    And so, going back to this November 11th, 2011, incident--
and I know you were not the Director. I understand that. A lot 
of people talk about the culture problem with the Secret 
Service, and the press reports--of all the press reports, the 
one that concerned me is that, back there on the 2011--and it 
said, ``Officers who were on the scene who thought gunfire had 
probably hit the house that night were largely ignored, and 
some were afraid to dispute their boss's conclusions.''
    Did you see that report, and are you aware of this issue?
    Ms. Pierson. Ranking Member Cummings, I, too, read that 
newspaper article and was troubled by those accounts.
    I have asked my Office of Professional Responsibility to 
retrieve the file and those records of what we know and when we 
knew it, if this young officer had made such a statement. I did 
find a statement where that young officer alleges that they 
were reluctant to report it to their supervisor to be 
criticized, I believe was his statement. That troubles me, as 
well.
    Mr. Cummings. And that's a major problem.
    Ms. Pierson. I am going to ask my Office of Professional 
Responsibility to reinterview that officer--they remain on the 
job today--to determine whether or not that officer would be 
more competent today or what were some of the problems that 
night that she felt like she could not say that. That extremely 
troubles me.
    Now----
    Mr. Cummings. It said that she heard shots, ``she heard 
shots and what she thought was debris falling overhead. She 
drew her handgun and took cover, then heard a radio call 
reporting possible shots fired near the south grounds.''
    She then called the Secret Service Joint Operations Center 
to report that she was breaking into the gun box near her post, 
pulling out a shotgun. According to this article, she replaced 
the buckshot inside with a more powerful slug in case she 
needed to engage an attacker, but then the call came over the 
radio to stand down.''
    The next day, the officer, ``listened during roll call 
before her shift Saturday afternoon as supervisors explained 
that the gunshots were from people in two cars shooting at each 
other.'' The report said that she, ``had told several senior 
officers Friday night that she thought the house had been 
hit,'' but on Saturday she did not challenge her supervisors 
for fear of being criticized, she later told investigators.
    Now, Director Pierson, as a former field agent and as the 
head of the agency, that has to concern you tremendously; is 
that right?
    Ms. Pierson. Yes, sir, it does. It's unacceptable.
    Mr. Cummings. Does it trouble you that some of your own 
agents apparently do not feel comfortable raising security 
concerns?
    And this is just one person. And there are others who, 
again, would rather be whistleblowers--and, again, I have no 
problem with whistleblowers. As a matter of fact, we do 
everything in our power to protect them. But this agency, if 
they'd rather be a whistleblower than to bring their concerns 
to you?
    See, you started off by saying that you're going to make 
sure this never happens again. Let me tell you what the problem 
is here. If you're heading an agency where the folks are not 
providing you with the information to do the right thing, to 
make the changes, how do you even know what the problems are? 
You follow me? Help me with this.
    Ms. Pierson. Yes, sir, if I may.
    Anytime, any organization, you start to make significant 
changes, some people will have resistance. Some people will 
push back. However, I will continue to lead and transform the 
Secret Service to ensure that we're prepared for our mission 
and ensure that we can restore our reputation to the American 
public.
    What I will tell you, over the last 18 months that I've 
been serving as Director and over the last 6 months, I have met 
personally with over 1,500 of our supervisors and employees. 
I've had a number of engagement sessions and spent over an hour 
with each of them, expecting--advising them of what my 
expectations are, what their performance requirements are, what 
personal accountability is, how to manage this workforce, how 
to ensure that we are performing at the highest levels in 
everything that we do, that we're operationally ready, that we 
are training, that we're evaluating each other, and that we're 
constantly looking at our mission to make sure we're being 
effective in everything we do.
    I can't speak for what has happened in the past, but I can 
tell you, as we're moving forward into the future and while I 
am Director, I will not tolerate personnel missteps where 
people either fail to act or do not support the workforce or do 
not work in unison. But I would say that I suspect there are 
many people that are still pushing back, and I'm going to 
continue to lead forward.
    Mr. Cummings. You know, the problem is that that officer, 
she was right. And that was the morning after the shooting. Yet 
it took 4 days for the housekeepers to discover that the 
bullets had struck the building; isn't that right?
    In other words, the officer was right.
    Ms. Pierson. Yes, ultimately, the officer was right.
    Mr. Cummings. The Washington Post story says that this 
agent subsequently reported her concerns to investigators. Was 
there an after-accident report about the 2011 shooting? Did it 
include recommendations relating to agents reporting their 
concerns without fear of being criticized? Do you know?
    Ms. Pierson. I don't know, but I would say that the 
officer's statement to our interviews that occurred with Secret 
Service employees are different than the officer's statement to 
the FBI and the investigators conducting the investigation.
    And that is why I've asked my Office of Professional 
Responsibility to go back and have a robust conversation with 
that employee to ensure that she feels supported, knows that we 
want her to come forward with any information, and that we 
understand what some of the impediments may be with the 
management team, where we feel like we can make improvements to 
ensure that that never happens again.
    Mr. Cummings. Let me say this, and then I'll close. Former 
Director Sullivan invited me a few years ago--you may have been 
there--to speak before your top agents after the Colombia 
situation with the prostitutes. And one of the things that I 
said to them back then--I expressed my tremendous respect and 
appreciation, but I also told them that I don't want anyone to 
imagine, imagine--imagining--that they can pierce the 
protective veil of the Secret Service, period. Because I firmly 
believe that the reputation is so very, very, very, very 
important.
    And, you know, I'd just--again, that culture thing is an 
issue. I'm sure others will question you about that. But I 
just--thank you for your testimony.
    I yield back.
    Mr. Chaffetz. [Presiding.] Thank you.
    I now recognize myself.
    Following up on Ranking Member Cummings, I sent you a 
letter, Director, specifically asking for details about this 
situation in 2011.
    I'd ask unanimous consent to enter it into the record so 
all Members can see it, the unclassified spot report on the 
incidents in November of 2011.
    Hearing no objection, so ordered.
    Mr. Chaffetz. Director, why is it--why is it that when I 
look at this report there isn't even a mention of Officer 
Carrie Johnson? And yet The Washington Post reports details 
about her calling into the Secret Service headquarters. Why 
isn't her name even mentioned in the spot report?
    Ms. Pierson. The spot report reflects the active 
investigation. I don't know what information that you have 
relative to Officer Johnson's reporting.
    Mr. Chaffetz. Well, you gave us this report. I asked you 
for all the details and information. This is minute by minute--
2052 hours, 2053 hours. It is minute by minute what happened in 
this situation.
    Are you telling me that The Washington Post is wrong, that 
she didn't call into the headquarters? Did she not do that?
    Ms. Pierson. I'm confused by your statement about ``call 
into headquarters.''
    Mr. Chaffetz. Well, according to The Washington Post, she 
called in and reported and said that she had heard shots fired. 
She reported that she was opening a box, getting out a 
shotgun--all those details.
    Ms. Pierson. That's the confusion that I have with the 
Washington Post article. Typically, when there is an emergency 
happening around the White House or alerts are made, much like 
the shots being fired on November 11th, I would expect officers 
to react according to their security protocols.
    Mr. Chaffetz. And she says in The Washington Post--it says 
that she called into the headquarters. There is no mention of 
that. Other officers are mentioned in there, but she is not. We 
will follow up on that. It is unacceptable to not even mention 
the actions that she took and that The Washington Post could 
get that but the Congress couldn't and you couldn't provide it.
    Let's go back to the fence-jumping situation. State 
police--the fence-jumper. State police had detained a person. 
Had a map in the car, all the weapons that Congressman Cummings 
had talked about, suspicious behavior. My understanding is 
that, actually, three officers had actually spotted him that 
day and not reported it--not reported it. And I want to know if 
that's true as we go along.
    The fence failed. Officers chased him, didn't catch him. 
Sniper was in position. No shots were fired. Dogs were out 
there, weren't released. Countersurveillance, I'm 
understanding, is understaffed. There was no--nobody shot 
anything. There was nobody that was intercepted. The doors were 
unlocked. An officer was overwhelmed. The crash box was 
evidently silenced.
    And yet the Secret Service puts out a statement that that 
they offered, ``tremendous restraint and discipline.''
    My question to you is, do those officers have your 
authority to use lethal force to prevent somebody from entering 
the White House?
    Ms. Pierson. Those officers do have the authority to use 
independent judgment to leverage lethal force when appropriate.
    Mr. Chaffetz. Is that true when somebody is trying to get 
at the President?
    Ms. Pierson. That is always true. They are law enforcement 
officers.
    Mr. Chaffetz. So it's always true when there's somebody 
who's trying to penetrate the White House that they can use 
lethal force?
    Ms. Pierson. As appropriate, within the confines of the 
law.
    Mr. Chaffetz. If somebody tried--explain the details of 
that. If somebody is approaching the White House, has 
penetrated the security and making a run for the White House, 
no apparent weapon, can they take that person down?
    Ms. Pierson. The law requires that law enforcement officers 
ensure that they are in imminent danger or others are in 
imminent danger before they can leverage lethal force.
    Mr. Chaffetz. So if the person is running at the White 
House, but no apparent weapon, they can or cannot use lethal 
force?
    Ms. Pierson. Those are going to be independent decisions 
made by the officer based on the totality of the circumstances.
    Mr. Chaffetz. How does an officer know if they have an 
improvised explosive device or a dirty bomb or if it's a 
terrorist? How do they know that? Shouldn't they assume that 
this person has ill intention?
    Ms. Pierson. Law enforcement officers are trained in 
observation skills, and I would assess that they are constantly 
looking at people for ill intentions.
    Mr. Chaffetz. I think it's confusing. This is part of what 
they have to deal with. They make a split-second decision.
    I want it to be crystal-clear: You make a run and a dash 
for the White House? We're going to take you down. I want 
overwhelming force. Would you disagree with me?
    Ms. Pierson. I do want our officers and agents to execute 
appropriate force for anyone attempting to challenge or breach 
the White House.
    Mr. Chaffetz. We've got to explore this further.
    The Secret Service put out a statement that, according to 
the--talked to the Associated Press, I should say. They 
reported that on September 20th at 1:24 a.m. Eastern time, 
Donovan, the spokesperson, Ed Donovan--Donovan said the man 
appeared to be unarmed to officers who spotted him climbing the 
fence, and a search of the subject turned up no weapon.
    Why would he say that there's no weapon?
    Ms. Pierson. I will have to have a--have to ask Mr. Donovan 
that question.
    Mr. Chaffetz. You haven't done that since the incident 
happened?
    Ms. Pierson. I know when Mr. Gonzalez was placed into 
custody he was found to have a folded knife in his right front 
pants pocket.
    Mr. Chaffetz. Do you consider that a weapon?
    Ms. Pierson. That is a weapon.
    Mr. Chaffetz. Would why the Secret Service put out an 
official press release saying that--or put out a statement to 
the Associated Press? Did you ever correct the--did you correct 
the Associated Press? Did you call them back and say, you got 
that wrong?
    Ms. Pierson. I have no knowledge of that.
    Mr. Chaffetz. So you just let it linger out there that 
there was no weapon. And that was wrong. It was inaccurate. 
Correct?
    Ms. Pierson. I do know that there has been a lot of 
information in this case, and that's why we are doing a robust 
review. I can't speak for conversations that I was not a part 
of or the press's interest in----
    Mr. Chaffetz. Did you read the press release before it went 
out?
    Ms. Pierson. I have read the press release before it went 
out.
    Mr. Chaffetz. Do you agree that the officers showed 
tremendous restraint and discipline? You agreed with that 
comment?
    Ms. Pierson. I do think, based on the totality of the 
circumstances and from Mr. Gonzalez's arrest, that these 
officers did use restraint in making a very difficult decision 
as to whether to employ legal force or subdue and arrest him.
    Mr. Chaffetz. Do you think they responded appropriately?
    Ms. Pierson. I do not think the security plan was properly 
executed, and that is why I'm conducting a robust investigation 
to ensure that we have a comprehensive review of what people 
were--that I have the facts, all of the facts, so I can make an 
assessments of what the decisions were on that night.
    Mr. Chaffetz. Thank you. I've gone well past my time.
    We'll now recognize the gentlewoman from the District of 
Columbia.
    Pardon me. We're going to recognize Mr. Horsford.
    Go ahead. We'll go to Ms. Norton.
    You're recognized for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    And I want to thank Director Pierson for her 30 years of 
service in the Secret Service, for rising through the ranks to 
become the first woman director. And I am aware of what she has 
inherited and of her many accomplishments.
    Director Pierson, I'm going to ask you about the rumors 
that have been out there about what the Secret Service may do. 
When Pennsylvania Avenue was closed down after Oklahoma City, 
there was a kind of example of how public access can remain. I 
was heartbroken. Both sides of the White House were closed 
down. I worked with the Clinton administration to open E 
Street, the back side of the White House, not only for its 
vista but because it's a major thoroughfare and it affected the 
entire region. That was narrowly closed down.
    But as Mr. Basham testified, in front of the White House, 
though cars can no longer go there, people can go there. And, 
essentially, it was made a park, a walkway. And I--none of my 
constituents, no one says it should be reopened. Because that 
would mean cars, not people.
    So my concern is whether or not people will continue to 
have access around the White House. I walked to the White House 
yesterday. I was pleased to find not only tourists but 
protestors, as usual, there.
    I ask you, I noticed that on--I followed your testimony, 
and you've testified 16 jumpers in only 5 years. So there's 
been an increase in fence-jumpers. And so I want to know 
whether you have considered before today simply asking that a 
higher fence be built, one that, for example, could curve, you 
know, still be historic, that wrought-iron fence, but with the 
curves going outward so maybe you'd damage one of your body 
parts if you tried to get over it, or even--and here, these are 
off the top of my head--multilayered glass behind the fence 
that could resist blasts from guns or bombs.
    Since there have been 16 in 5 years, at least--I think many 
more over the years--have you considered such commonsense 
devices as that so that the public would still have access but 
the President of the United States and his family would be 
protected? Have you ever recommended that?
    Ms. Pierson. Representative Norton, we do want to work in 
partnership to ensure that the people have access in proximity 
to the White House and the historic nature and the national 
significance of Lafayette Park and Pennsylvania Avenue and the 
White House.
    And so I do look forward to continuing to work with you and 
the administration and the Department to look at what 
additional security features can be put in place, not only for 
White House fence-jumpers but for the other challenges that 
face in us in securing public areas.
    Ms. Norton. I recognize that most of these fence-jumpers 
are harmless. I am worried about multiple fence-jumpers and 
whether you have the resources and the staff if there were five 
or six of them who came across the fence. By my calculations, 
you are down almost 300, more than 250 agents in the Uniformed 
Service in the last year or 2 since the sequester and the cuts. 
Is that the case?
    Ms. Pierson. Yes, Representative Norton, the Secret Service 
has had a reduction in its staffing as a result of 
sequestration and other fiscal constraints. We are close to 550 
employees below our optimal level.
    Ms. Norton. Do you have--do you have to--I understand that 
staff has had to be brought in from other units, who may not 
have been as familiar with the White House, because of the 
shortage of staff. Is that the case?
    Ms. Pierson. Earlier this summer and based upon the work 
requirement that the Secret Service is faced with in the month 
of September in order to support the United Nations General 
Assembly, I made the decision to bring in special agents from 
around the country to support some of the Uniformed Division 
posting assignments in proximity to the White House tours. 
That's provided some relief for our Uniformed Division to be 
able to take some annual leave.
    Ms. Norton. Yeah.
    Mr. Chairman, I realize my time is gone, but I do think 
that Congress has to take some responsibility when the 
sequester went across the board, including police agencies like 
the Secret Service.
    Thank you, Mr. Chairman.
    Mr. Chaffetz. I thank the gentlewoman.
    We'll now recognize the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Director, I'm actually a big fan of law enforcement, and I 
don't take any delight in asking you the questions I'm going to 
ask you. But law enforcement are given unique powers in our 
society, and with those unique powers come unique 
responsibilities. And I can't think of any responsibility 
greater than guarding the safety and security of our President 
and his family.
    So, as I understand it, several agents believe that shots 
were fired, and the supervisor concluded that it was a vehicle 
backfiring. Even if that were true, given the very small 
investment of resources, why not investigate the shots fired?
    Ms. Pierson. Representative, I think that is where some of 
the confusion starts to come out, as the story that's in The 
Washington Post versus----
    Mr. Gowdy. I'm not asking you about a Washington Post 
story. I'm asking you about why a housekeeper, who doesn't go 
to Glynco, who doesn't spend 14 weeks in training, who doesn't 
have 18 weeks of training thereafter, found glass and your 
agents did not. That didn't come from The Washington Post.
    Is that true? Did a housekeeper find evidence of the 
shooting and your agents did not?
    Ms. Pierson. The housekeeper was able to locate fragments 
of glass on the Truman Balcony, which is not an area that is 
frequented by security personnel.
    Mr. Gowdy. And I didn't you about who it's frequented--I 
asked you--there was a spontaneous conclusion that shots were 
fired. There were officers who believed they smelled gunpowder. 
Your officers drew their weapons, Director. That's how 
seriously they took it.
    So I'm not interested in cursory searches. When did your 
agency find evidence of the shooting?
    Ms. Pierson. I believe it was on the 15th or 14th of 
November.
    Mr. Gowdy. Which was how many days after the shooting?
    Ms. Pierson. Three to 4 days later.
    Mr. Gowdy. All right. So you have an officer 
contemporaneous with the shooting believing that shots were 
fired. You have officers taking cover because they believed 
shots were fired. You have officers at the White House drawing 
their weapons because they believed shots were fired. Now give 
me all the evidence to support a vehicle backfiring.
    Ms. Pierson. Representative, I am sure your familiarity 
with law enforcement--in downtown areas, there is sound 
attenuation. Oftentimes----
    Mr. Gowdy. I've never heard a car backfire six to eight 
times, Director, ever. Have you?
    Ms. Pierson. I've heard car backfires, but I don't think--
--
    Mr. Gowdy. Six to eight times?
    Ms. Pierson. I think it's undisputed that there were 
witnesses that observed shots being fired.
    Mr. Gowdy. Right. And it is also undisputed that a 
housekeeper, who doesn't train at Glynco, who doesn't have 18 
weeks of intensive training, found the evidence of the shooting 
and your agency did not.
    And I'm going to give you credit because you didn't bring 
it up; it was brought up by a colleague. But I have some 
colleagues who are just obsessed with sequestration. We can't 
have any hearing without it coming up. But you're not going to 
sit there and tell us that sequestration is the reason your 
agency did not find evidence of the shooting, are you?
    Ms. Pierson. No, I am not.
    Mr. Gowdy. Okay. And I give you credit for that. And I was 
stunned that one of my colleagues would try to conflate, to use 
the Attorney General's word, sequestration with the fact that a 
law enforcement agency waited 4 or 5 days to find evidence of a 
shooting that a housekeeper found.
    So give me all the evidence to back the vehicle-backfiring 
narrative. Because we already know all the evidence to support 
the shooting. Give me all the evidence that made your 
department so sure that it was a vehicle backfiring that you 
didn't even search the White House.
    Ms. Pierson. The Secret Service was actively engaged with 
the United States Park Police in an effort to determine where 
and what direction the shots were fired on Constitution Avenue. 
That----
    Mr. Gowdy. Madam Director? Madam Director, you reached the 
conclusion that it was a vehicle backfiring as opposed to shots 
fired. Now, this is the third time I've asked. Give me all the 
evidence to support that supervisor's conclusion that it was 
not shots fired, despite all the contemporaneous claims that it 
was and despite all of the reaction of your agency that it was. 
Give me all the evidence to support the theory that it was a 
vehicle backfiring.
    And then tell me, why not invest the very minimal resources 
required to exhaustively search the White House?
    Ms. Pierson. Representative, oftentimes in these cases 
there are a number of different people that make different 
statements. What I can tell you is that Uniformed Division 
officers on Constitution Avenue heard gunfire and reported 
gunfire. I can't speak to the specificity of the individual 
you're talking about that reported it as----
    Mr. Gowdy. Well, can you speak to why a housekeeper found 
it and your department did not?
    Ms. Pierson. Housekeepers routinely work in the private 
residence of the President and First Family.
    Mr. Gowdy. So even when there is overwhelming, let's just 
say, suspicion that shots were fired--we won't say 
``overwhelming evidence'' because that would've required you to 
search the premises--overwhelming suspicion of shots fired, and 
you don't go through every inch of that residence?
    I want you to imagine a prosecutor is in front of a jury, 
Madam Director, because this is where sometimes these cases 
wind up, and you explain to the jury why a housekeeper found 
evidence of the shooting and your agency did not.
    Ms. Pierson. Representative, again, this case has been 
prosecuted in Federal court, and those explanations were made 
before a Federal----
    Mr. Gowdy. And thank the Lord the explanations were 
sufficient for a jury. Now, I want you to make them sufficient 
for Congress.
    Ms. Pierson. The initial shooting incident occurred at 9:30 
at night. It's difficult to see at night.
    Mr. Gowdy. How about hear?
    Ms. Pierson. Officers----
    Mr. Gowdy. Can you hear at night?
    Ms. Pierson. --heard the shots fired on Constitution 
Avenue. Officers reacted, picked up security positions, swept 
the area looking for any type of injury, any type of intruder.
    It was not known until days later that these shots had 
actually struck the upper level, the third-floor level, of the 
White House.
    Mr. Gowdy. Okay. I'm going to end, because I'm out of time, 
with the same question that I began with: Why not search every 
inch of the White House, given the very small investment of 
resources?
    I mean, I went on your Web site, and I saw that you have 
training for psychology, you have training for survival skills, 
none of which I'll minimize, all of which I'm sure is very 
important. This is just processing a crime scene, Director. 
This is not high math. It is processing a crime scene. You 
actually don't need 18 weeks of training to be able to do that; 
you just need to walk around. So why wasn't it done?
    Ms. Pierson. It is my understanding that a perimeter sweep 
was done. Was it as thorough as it needed to be? Obviously----
    Mr. Gowdy. Evidently not.
    Ms. Pierson. --not.
    Mr. Gowdy. Evidently not.
    Mr. Chaffetz. The gentleman's time has expired.
    We'll now recognize the gentleman from Massachusetts, the 
ranking member of our Subcommittee on National Security, Mr. 
Tierney, for 7 minutes.
    Mr. Tierney. Thank you.
    Well, thank all the witnesses here this morning.
    Director, I want to talk a little bit about preventions. If 
we look back in July, several months before the incident where 
the perimeter was breached and Mr. Gonzalez went into the White 
House, it's our information that he was stopped by the Virginia 
State Police and in his car they found at least 11 weapons and 
a map with a line drawn directly to the White House. Is that 
your understanding, as well?
    Ms. Pierson. It was a regional map with a line pointed to 
the memorial area of the Mall, including the White House and 
the other historic monuments.
    Mr. Tierney. And our reports are also that these Virginia 
State Police and the ATF then referred that matter to the 
Secret Service, presumably because of that line. Is that 
correct?
    Ms. Pierson. Yes, that's correct.
    Mr. Tierney. So the Secret Service, based on that, then had 
an interview with Mr. Gonzalez at that time. Is that also 
correct?
    Ms. Pierson. Yes. The case was later referred to the Secret 
Service for an interview of Mr. Gonzalez.
    Mr. Tierney. How thorough would that interview have been, 
according to your protocols? How deep would they have gone into 
their examination of Mr. Gonzalez and his history?
    Ms. Pierson. They had a very thorough initial interview 
with Mr. Gonzalez and initiated contacts with his family 
members, his mental health history, and the police reports.
    Mr. Tierney. So they determined that he had a mental health 
history?
    Ms. Pierson. He acknowledged that he had a mental health 
history as a veteran suffering from PTSD.
    Mr. Tierney. And do your protocols allow you to then look 
at his records, to obtain his records, or is that not something 
you can do?
    Ms. Pierson. If the individual consents to the release of 
their medical records, we do pursue that. And in this case Mr. 
Gonzalez consented to the release of his military medical 
records.
    Mr. Tierney. So you had all of his medical records to 
review. I presume your agents did review them?
    Ms. Pierson. They were obtained over a period of time. And 
we have received them, and they have been reviewed.
    Mr. Tierney. And despite all of that, what happened? You 
didn't take any action, you didn't have him arrested, you 
didn't have him continue to be under observation, did you?
    Ms. Pierson. Representative, it is a very difficult thing 
for people dealing with disabilities and people dealing with 
mental illness when they don't exhibit any unusual direction of 
interest in our protectees. Mr. Gonzalez at the time denied any 
interest or any intent to harm anyone. He indicated that his 
information relative to the map in his car was given to him by 
another individual who had recommended places in Washington, 
D.C., to site see, and that he intend to go on camping trips, 
and wanted to go to the Valley Forge, Pennsylvania, area.
    Mr. Tierney. Was the individual whom he said gave him that 
map ever questioned?
    Ms. Pierson. Not to my knowledge.
    Mr. Tierney. How does that comport with your protocols and 
your procedures?
    Ms. Pierson. I know our investigators are as thorough as 
they possibly can be in investigations like this to make sure 
that we have a good understanding of Mr. Gonzalez----
    Mr. Tierney. So is it your testimony the individual wasn't 
available for some reason?
    Ms. Pierson. I do not know the specifics of that, but I can 
get back with you.
    Mr. Tierney. I wish you would, because I think that would 
be an indication of whether or not they really were as thorough 
as they should have been.
    Now, notwithstanding that, there was a second incident 
before the perimeter was breached by Mr. Gonzalez when he went 
into the White House where he was found walking in front of the 
White House with a hatchet in his belt. Is that correct?
    Ms. Pierson. Mr. Gonzalez was observed on August 25 on the 
south fence line.
    Mr. Tierney. And he was interviewed again by Secret Service 
agents?
    Ms. Pierson. He was interviewed by uniformed division 
officers----
    Mr. Tierney. Of the Secret Service?
    Ms. Pierson. --of the Secret Service and special agents of 
the Secret Service.
    Mr. Tierney. And his name was run against a database?
    Ms. Pierson. Yes, his name was run against a database.
    Mr. Tierney. And the database basically indicated the 
earlier incident, right?
    Ms. Pierson. Yes. The database provided information, the 
original contact with Mr. Gonzalez.
    Mr. Tierney. So at that time they knew he had been arrested 
in Virginia, had a map pointing towards the area of the White 
House, had ammunition in his car, was now found outside the 
White House walking with a hatchet. We knew he had mental 
health problems, his records had been reviewed. What happened 
then?
    Ms. Pierson. Officers and agents made contact with Mr. 
Gonzalez, advised--asked him about the hatchet that he was 
carrying. He indicated that he had been camping in the area of, 
like, Prince William County down around Quantico.
    The agents and officers had asked him for a consent search 
of his vehicle. He agreed and was going to return the hatchet 
to the vehicle. They went back and they looked through the 
vehicle. Mr. Gonzalez was extremely cooperative, dispelled any 
concerns that the officers had. He had camping gear and camping 
equipment in his car. He appeared to be living out of his car.
    Mr. Tierney. And so they just let him go.
    Ms. Pierson. Mr. Gonzalez had not violated any laws and he 
had to be released.
    Mr. Tierney. Did they have any follow-up? Did anybody talk 
to any other agencies in the Washington area about observing 
this individual or making sure that somebody knew what his 
behavior was after that second incident?
    Ms. Pierson. That information, the second incident was also 
passed into our analysis desk so that it could be evaluated in 
context to our first contact with Mr. Gonzalez in July.
    Mr. Tierney. And what happened at the end of that 
evaluation, what was the recommendation?
    Ms. Pierson. That he had not committed any violations, that 
nothing--that he was under mental health evaluations by both 
the military, VA, and that no further action could be taken by 
the Secret Service, other than to continue to monitor his 
behavior through his family.
    Mr. Tierney. Well, is that the only way they could monitor, 
is through his family? There was no other indication of law 
enforcement activity that could monitor his behavior?
    Ms. Pierson. He was currently on bond pending the charges 
from the State police and the incident that brought him to our 
attention. So there was some criminal conduct on the State 
level that was still being addressed and that he was returning 
to that area. The case was still under evaluation as to what 
Mr. Gonzalez's mental history was and whether or not he was 
going to come to our attention again.
    Mr. Tierney. And it was your understanding that you thought 
it was particularly appropriate that the Secret Service did 
nothing else in regard to making sure that this individual was 
monitored in his behavior?
    Ms. Pierson. No, what I am trying to reflect, 
Representative, it is very difficult for the Secret Service. 
When these individuals come to our attention, as many as 300 a 
year--or a day--are being evaluated by our Office of Protective 
Intelligence.
    Mr. Tierney. Do those 300 all have a history of twice being 
picked up with weapons and a situation would put in question 
that they were in proximity or heading to a proximity of the 
White House?
    Ms. Pierson. No, but many of them are brought to our 
attention for either having an unusual direction of interest or 
making a direct threat against our protectees. They are 
mentally ill, many of them have a long mental health past. Some 
of them are more cooperative than others. But in the specific 
case of Mr. Gonzalez, he was being very cooperative. His family 
had been contacted by investigators. The family members 
indicated that he was cooperative, that he did not have a 
violent past. His mental health records, to my understanding, 
as I've been briefed, did not reflect any of his mental health 
contacts referred him as being a danger to himself or others.
    Mr. Tierney. Thank you, Mr. Chairman, for your time.
    Mr. Chaffetz. I thank the gentleman.
    One follow-up to that. It is my understanding people have 
told us that there were three different officers that had seen 
him, recognized him the day that the incident happened, but did 
not report it. Is that true or not true?
    Ms. Pierson. It is my understanding, based on how I've been 
briefed, that two of the officers recognized Mr. Gonzalez in 
the area of the White House on September 19 and observed him 
for some time. They had remembered him from the contact they 
had had with him on August 25 when he was on the south fence 
line. They observed him for some time, he wasn't acting 
inappropriately, he didn't violate any laws.
    Mr. Chaffetz. They did not report that and they did not 
approach him, correct?
    Ms. Pierson. I think they noted that, but they did not 
approach him.
    Mr. Chaffetz. And they didn't report it.
    Ms. Pierson. Not to my knowledge.
    Mr. Chaffetz. I now recognize the gentleman from Georgia, 
Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. I appreciate that.
    I think there are several concerns. And I think one of the 
things that I agree just wholeheartedly with, with the ranking 
member is this is something that both Republicans and 
Democrats, this is--we're talking about the White House. It is 
not a national icon, as you said, it is a world icon. Everyone, 
you think of America you think of the White House.
    And one of the concerns that I have and we've been 
mentioning many of the issues here recently on just different 
events going on is the issue is not the protocols that have 
been put in place now and how it wasn't done. It's the issue of 
why are there seemingly so many incidents on a foundational 
level. Because if we don't start at the foundational, why there 
doesn't seem to be a willingness to report, why there doesn't 
seem to be a willingness to exercise, you know, a willingness 
to say this is something that I've noticed. As the officer 
said, she didn't feel that she could report up line.
    If there's other issues where you're having the instances 
described overseas, in other places, there seems to be a 
foundational issue that we have got to address in these--not 
only from your perspective, but from hearings.
    And there are several things that I want to address. You 
made a statement just a moment ago, it was curious, because you 
said in the matter of one sentence you said we get 300 
suspicious people a year and 300 a day in the same sentence. 
Which is it?
    Ms. Pierson. Let me correct myself. In talking to our 
Protective Intelligence Division, as of yesterday they were 
directly overseeing 327 investigations.
    Mr. Collins. Okay. So in totality we are looking at 327 at 
this point.
    The question I have is, you said that you're still making a 
review, but it is our understanding, it has been reported, and 
it is also very visual, as my colleague from the District of 
Columbia has pointed out, there has already been a new fence or 
perimeter, a police line perimeter put in front of the White 
House. Is that correct?
    Ms. Pierson. We have put up a temporary bicycle rack----
    Mr. Collins. Yes or no?
    Ms. Pierson. --to provide us with some standoff areas to 
the fence while this investigation is underway.
    Mr. Collins. Ms. Pierson, I thank you for the long answer 
to yes, but I have several things that I want to have, because 
I think they are important here, because you've made several 
comments that we're doing an investigation, we're saying why 
these protocols were breached, how they got there further. But 
yet you also said, we don't want to rush to change--or we don't 
want to change things, but yet we have already started with 
putting up a perimeter fence or at least a barrier now back 
from the fence currently.
    I'm wondering here is the problem doesn't seem to be the 
fence. The problem seems to be the fact that someone jumped the 
fence, run 70 yards, went into the White House with nobody 
stopping them.
    You made a comment--I also have from my background my 
father was in law enforcement, so this is hard for me in 
looking to it--but you made an analogy just a few moments ago 
that I'm not sure should be accurate here. You talk about 
discretion and restraint. Discretion and restraint in the way 
you--police officers do this all the time, they do so on the 
side of the road when they have made a stop. You are talking 
about officers who are protecting a national icon.
    When they jump the fence, there should be an immediate 
understanding this person should not be here and there should 
be an immediate understanding that there is not a restraint 
factor here, this is not the nice, cuddly Secret Service, that 
you've got on our property, let's move you back off.
    Someone running, I'm having trouble how you correlate 
restraint and discretion in a traffic situation, which is the 
way it came across, to someone actually going after the 
President's home.
    Ms. Pierson. Representative, I have stated that they did 
not properly execute the security protocols that are 
appropriate to respond to----
    Mr. Collins. You believe because that is because of the 
information or guidance that they have gotten from the top that 
they were not sure what to do? Have they been told to exercise 
restraint in these measures or they have been told to exercise 
protection?
    Ms. Pierson. Those officers have the authority to take 
legal law enforcement action as individuals. I am conducting an 
investigation to find out what were the decisions that were 
made, what are the facts in the totality of the circumstances 
that those officers saw.
    Mr. Collins. Mr. Keil, I want to give Ms. Pierson a break 
here, because this issue of putting the fence line in front or 
at least a police barrier in looking at this area, I think we 
have--again, we're trying to make ourselves appear better as 
we're working on it, as hard as that is to say. This President 
and his family deserve to be protected. It is very concerning 
to me that they were not told even about the shooting until 
many days later. That's just mind boggling to me for this 
President and his wife to have to deal with that, especially 
when their daughter was actually in the residence that night.
    I do have a question, Mr. Keil. Explain to me, is putting 
the fence, is this the only fix here? I mean, we have not heard 
from anybody else. Help me out here. Is there a better way to 
go about this?
    Mr. Keil. Sir, from my perspective protecting U.S. 
Embassies around the world, as Mr. Basham even pointed out, it 
is a concentric ring of security, layered security. The fence 
typically is one of the last things. And typically fences are 
meant to keep good people out. Bad people find ways over 
fences. So you can't simply rely on a fence to be your last 
resort.
    Mr. Collins. Okay. Mr. Chairman, I think the issue that has 
come as we go forward here is the protection of this not just a 
national icon, but a world icon. In the threat environment in 
which we're in it's very concerning that we get half-truths to 
start with, more truth. It's just a leaking out, when this is a 
group here that truly wants to say what is the issue here and 
why are we not doing it in the proper way. And simply putting 
up a visual we're doing something is not right. The foundation 
has go to be laid, and over the past few years the Secret 
Service has a foundational problem, and I think that's your 
bigger issue here, along with protocols not being followed.
    With that, Mr. Chairman, I yield back.
    Chairman Issa. [Presiding] I thank the gentleman.
    As we go to Mr. Lynch, I just want to make sure one thing 
was clear. Director, the failure to apprehend Mr. Gonzalez 
before he got well into the White House, the change of a 
further setback or fence, since you successfully stopped 16 
jumpers in the last 5 years, you said that in your opening 
testimony, was there any reason that you couldn't have stopped 
17?
    In other words, you're taking the American people's space 
with this additional fence and the proposal for a setback that 
would include Pennsylvania and Lafayette being restricted. And 
yet you've made no case here today that you couldn't have had 
17 out of 17 apprehensions if not for outright human error and 
procedural failures. Isn't that true?
    Ms. Pierson. The placing of the bike rack to provide a 
buffer zone for the fence is to allow us time to do this 
analysis to make sure that our personnel and our procedures are 
going to be effective with the time constraints that the 
individuals have to be able to effect an effective tactical 
response to runners or fence jumpers.
    Chairman Issa. Okay, I guess I get it that you're not up to 
snuff to the level you'd like to be and until you're sure you 
are you want to have that extra time. I sort of get that, but I 
have to be honest, that's a little concerning.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    And I thank the witnesses.
    Madam Director, I want to go over again the prior contacts 
between Mr. Gonzalez and the Secret Service.
    As my colleague Mr. Tierney noted, there was a prior 
contact with Mr. Gonzalez back in July 2014. He had been pulled 
over and he had a small arsenal of weapons in the car.
    I just want to try to explore, when does the red flag come 
up for the Secret Service? So the Secret Service was informed 
that he had 11 weapons in the car. And I just want to go over, 
I had the evidence list from the State police that was provided 
to the Secret Service.
    Mr. Gonzalez had a Mossberg Maverick model 88 .12 gauge 
pump service shotgun in the car. He had a Springfield Armory 
.308 Winchester with a scope and a bipod. He had an Adler Italy 
Jager AP-85 with a red dot scope in the car. He had a Tristar 
12 gauge shotgun in the car. He had an AR-15, which is a pretty 
sophisticated weapon, with a flashlight and scope. He had a 
Weatherby Vanguard 270 caliber bolt action rifle with a scope 
and a bipod. He had a Smith and Wesson 380 caliber automatic 
black handgun. He had a Glock 45 in the car with an empty 
magazine, although later we found he had 800 rounds of 
ammunition. He had a .357 Magnum revolver. As well, he had 
another .45 caliber. And he also had a map--and this is the 
evidence list and you seem to be minimizing all this stuff--but 
it says, one map of Washington, D.C., with writing and a line 
drawn to the White House.
    Okay. So that's what we have with our introduction to Mr. 
Gonzalez. And also subsequent to that we know he has a history 
of mental illness. Then he shows up at the White House in 
August of 2014, he's got a hatchet in his belt. No red flags, 
we let him go.
    Then, of course, there's the day that he jumps the fence 
and runs into the White House. And I want to talk about that 
for a minute. You say that he came in through the front gate, 
went through the front door at the portico, and was wrestled to 
the ground--or to the carpet actually you said--wrestled down 
to the rug near the Green Room. I just want to remind you that 
the distance from the front of the White House where he came in 
to the Green Room is about 80 feet. This is only 60 feet, the 
width of this room right here, this 60 feet. So----
    Chairman Issa. Seventy yards.
    Mr. Lynch. No, no, it wouldn't be 80 yards. No, it's 70 
yards the lawn, it's 30 yards inside the house, inside the 
house. I've been there many, many times. To talk about somebody 
transversing the White House foyer, the full length of the East 
Room, down to the Green Room, to the American public that would 
be half of a White House tour. That's what that would be. That 
isn't just getting inside the portico, that's half of a White 
House tour to the American public.
    And you keep minimizing this stuff. I'm just wondering, 
when do the red flags go up for the Secret Service? I know you 
have a lot of wonderful people over there, but this is not 
their best work. And we have a serious, serious issue here 
about protecting the President and his family. This is 
disgraceful, this is absolutely disgraceful that this has 
happened. And I'm not even going to mention the fact that it 
took us 4 days to figure out that somebody had shot seven 
rounds into the White House.
    This is beyond the pale. And I have listened to your 
testimony very deliberately here this morning. And I wish to 
God you protected the White House like you're protecting your 
reputation here today. I wish you spent that time and that 
effort to protect the American President and his family like 
I'm hearing people covering for the lapses of the Secret 
Service on these several occasions. I really do.
    Mr. Lynch. So what are we going to do--and, look, this 
whole thing is the United States Secret Service versus one 
mentally challenged man, one man with mental illness, who you 
knew had mental illness.
    This is the Secret Service against one individual with 
mental illness, and you lost. You lost. And you had three shots 
at this guy, three chances, and he got to the Green Room in the 
White House.
    What happens when you have a sophisticated organization 
with nefarious intent and resources going up against the Secret 
Service? What happens then?
    Chairman Issa. The time of the gentleman has expired. I 
thank the gentleman.
    But if the gentlelady has any answers to any of his 
questions, I would appreciate hearing them.
    Ms. Pierson. Let me be clear. The United States Secret 
Service does not take any of these incidents lightly. They are 
all an extremely----
    Mr. Lynch. With all due respect, that is my point.
    As a casual observer to what has happened here, I don't 
think the Secret Service is taking as their duty to protect the 
American President and his family at the White House--I don't 
think you are taking it seriously. That is exactly my point.
    Based on the evidence--based on the evidence and the series 
of lapses, unfortunately, that is the conclusion that I arrive 
at, that you are not taking your job seriously.
    I'm sorry. I hate to be critical. But we've got a lot at 
stake here. We have a lot at stake. And I know people are 
dancing around this issue, but I've got to call it like it is.
    I have very low confidence in the Secret Service under your 
leadership. I have to say that. And that is not--that's not an 
easy thing for me to say. But based on the evidence, that's how 
we have to call it here.
    Based on the evidence, my confidence in you protecting the 
American President right now at the White House, which is 
supposed to be one of the most secure buildings in the country, 
if not the world--my confidence in you doing that is very, very 
low right now.
    Chairman Issa. I thank the gentleman.
    The gentleman from North Carolina, Mr. Meadows, is 
recognized.
    Mr. Meadows. Thank you, Mr. Chairman.
    Director Pierson, I want to come back. You were appointed 
in March of 2013. Is that correct?
    Ms. Pierson. Yes. That's correct.
    Mr. Meadows. So what three things have you done to improve 
the culture since you have gotten there? Very briefly. I have 
limited time. What three things have you done to improve the 
culture? Because that has been brought up, that there is a 
culture problem.
    Ms. Pierson. We have instituted an Office of Professional 
Integrity. We have established a new discipline process so that 
discipline is done in a more transparent and consistent way. We 
have initiated development training for our supervisors, for 
our SES, and for our work and file workforce.
    Mr. Meadows. All right. So you've done some training and 
some new positions. Because I'm a little concerned. When that 
question came up--I watch people all the time--and no less than 
four people that are here with you today agree that you have a 
cultural problem. And, you know, you can tell from their 
responses that there is an issue within the Agency. But I also 
want to go back and give you a chance to correct your 
testimony.
    I thought I heard earlier that you said that you were short 
500 Uniformed Secret Service people due to sequestration. I 
can't believe that would be accurate. So I'll give you a chance 
to correct that.
    Ms. Pierson. Across the organization, the Secret Service is 
down 550 personnel.
    Mr. Meadows. Okay.
    Chairman Issa. Will the gentleman yield for just a second?
    Mr. Meadows. Yes.
    Chairman Issa. He wanted--would you stop the clock for just 
a second--the amount of people who are in the U.S. Secret 
Service the day you were sworn in and the amount of people that 
are there today, if you would, please, because these numbers of 
full-time equivalents and so on--I think all of us on the dais 
have a right to understand what the impact is from the day you 
were sworn in.
    Ms. Pierson. Well, I don't have those specific numbers for 
you today. Representative Chaffetz did bring up the fact that 
there had not been any basic training classes in fiscal year 
2012 and 2013.
    Mr. Meadows. But we're talking about the number of people. 
And you're saying 500 fewer people? That cannot be right, 
Director.
    Ms. Pierson. That is correct, sir, over the last 2 years.
    Mr. Meadows. Well, let me tell you why it is confusing. 
Because I am looking at your budget request for last year, and 
it says in here, in your request, that you plan to reduce the 
staffing by 376 full-time equivalents.
    Why would you do that? If you're already short 500, why 
would you, in your budget request, request a 376 full-time 
equivalent reduction? I am confused. Wouldn't you be confused?
    In your budget request, you also said that we need to be 
reducing the number of years of experience by 5 years over the 
next 4 years. I am confused.
    Why would we want less-experienced Secret Service agents, 
Director? These are your numbers. Do you have an answer?
    Ms. Pierson. I do know that we have provided a human 
capital strategy to the Congress, at their request, that 
outlines the Secret Service's requirements----
    Mr. Meadows. But these are your requests.
    And let me tell you what is even more confusing then. I 
will go ahead a little bit further.
    It says the committee--the congressional committee is 
concerned that the President's budget request creates a pay 
shortfall that will result in the reduction of at least 376 
full-time equivalents and that this will fundamentally affect 
the dual mission within the Secret Service. The committee was 
recognizing this, not you.
    Do you not think that that creates a cultural problem when 
you're seeking reductions and you're here testifying today that 
you have too few people? Do you see the hypocrisy in that?
    Ms. Pierson. I do see the difficulty in trying to operate a 
critical Federal Agency in times of fiscal constraint.
    Mr. Meadows. Okay. Well, let's go, since you're talking 
about fiscal constraints--because I started looking real 
quickly--because I agree with Mr. Lynch. We need to do all we 
can to give you the tools to make sure that you can change the 
culture and protect our President.
    So I started looking at it, but I was concerned to find a 
whistleblower came to us and said that you spent over $1 
million on an executive luxury suite--is that correct?--on the 
eighth floor. On your eighth floor, over $1 million spent on a 
luxury suite since you've come to power.
    Ms. Pierson. I don't know what that is in reference to 
unless----
    Mr. Meadows. Did you spend $1 million or more on a 
conference room, outfitting it--a luxury suite--on the eighth 
floor? Yes or no?
    Ms. Pierson. No. What we have done is spent money to 
transform our Director's Crisis Center.
    Mr. Meadows. Okay. The Director's Crisis Center, which is 
on the ninth floor. Now we've done it again on the eighth 
floor.
    We've got locators on each one of those floors. Is that 
correct? That's what the whistleblower is telling me.
    Ms. Pierson. That information he has talks about the 
integration of both the Director's Crisis Center----
    Mr. Meadows. How do you know? Because the whistleblower 
talked to us.
    Ms. Pierson. I know from what we have done in the way of 
installations within our office. I can't speak to what your 
individual is reporting----
    Mr. Meadows. Okay. Do you have a locator on the eighth 
floor now?
    Ms. Pierson. We have multiple locators in the building.
    Mr. Meadows. Do you have one on the eighth floor?
    Ms.  Pierson. Yes.
    Mr. Meadows. Okay. Is that a secure area?
    Ms. Pierson. Yes.
    Mr. Meadows. Is the eighth floor a secure area where 
vendors that don't have classified--can they go in and out, if 
they don't have a clearance, on the eighth floor?
    Ms. Pierson. All of our vendors are either escorted or have 
clearance, and the locator itself is not a classified document.
    Mr. Meadows. So--but it does tell you where the President 
and the Vice President and all relative people are. It is a 
locator. Right?
    Ms. Pierson. It is a reference point for our management 
team.
    Mr. Meadows. Why would you need another one of these? When 
you already have two, why would you need another one one floor 
down in your luxury suite?
    Chairman Issa. The gentleman's time has expired.
    The gentlelady may answer.
    Go ahead and answer.
    Ms. Pierson. I am--we need to have instant information for 
us to be able to make informed decisions as a management team, 
and having quick access and enough people to leverage 
technology and look at camera views and look at information 
being provided to us realtime from our protective missions is 
critically important to me and critically important to my 
staff. This is one of the areas where some of those key 
decisions are made, and it is integrated in with other systems 
throughout the building.
    Mr. Meadows. Mr. Chairman, I yield back. I think we need to 
explore this further, though.
    Chairman Issa. I thank the gentleman.
    And for the Director, during the hearing, we are going to 
try and get more accurately the correct number because I have 
got to tell you, from the dais, I think all of us want to 
understand this 500.
    We show 1,420 authorized uniformed officers, 1,300 on hand. 
And we don't show that is an appreciable drop during your 
tenure, as your budget has gone up, with 2,200 agents.
    So we are trying to find where the 500 represents a 
shortfall in full-time equivalent other than a legacy of, 
perhaps, never filling the authorized slots.
    I am going to give the additional time to the gentleman 
from Virginia.
    But if you will answer just one question:
    Isn't it typical that, although your budgets are 
increasing, that you plus-up going into the 2016 or a 
Presidential cycle and that's when you want to peak and that 
you do have lesser requirements when you don't have 
Presidential candidates and so on?
    Because I am very concerned about the--coming before 
Congress at a time when we are giving you more money than 
you're asking for and complaining about sequestration and 
limited resources.
    So be prepared to answer that. I am not going to take the 
time right now. It is the gentleman from Virginia's time. But 
those questions are going to continue throughout this hearing, 
and we are going to follow up in writing afterwards.
    The gentleman from Virginia, Mr. Connolly, is recognized.
    Mr. Connolly. Thank you. Thank you, Mr. Chairman.
    Director Pierson, in light of the facts that have come out 
and in light of your own review thus far, had the First Family 
been in the family quarters or anywhere in the White House, 
would you conclude professionally that there was a threat to 
the First Family?
    Ms. Pierson. Yes. I think Mr. Gonzalez coming into the main 
floor mansion is a threat.
    Mr. Connolly. I think it is really important to remember--
you know, I was a freshman in high school on November 22, 1963, 
and all of us who lived at that time remember where and when we 
were when we heard the terrible news from Dallas.
    But, you know, in my mind is that Secret Service agent, Mr. 
Hill, who threw himself on the speeding car that contained the 
President and the First Lady and used his body to shield her. 
It is a sacred mission the Secret Service has. It is not an 
easy mission.
    But it is very troubling to all Americans that our duly 
elected President and his family were actually potentially in 
real jeopardy on the White House grounds itself.
    I wonder whether you would agree that, when you look at 
every aspect of this, sadly, it represents a comprehensive 
failure. They add up one by one. I think there was a failure, 
frankly, to take the Gonzalez threat seriously after the 
information provided by the Virginia State Police.
    We knew he had a history of mental illness. We knew that he 
was loaded up with guns. We knew that he had a map of 
Washington. You indicate that that map was described as just a 
tourist map, looking at places he might go. That might make 
sense except for the fact that he was loaded up with ammunition 
and weapons in his car at the time.
    Now, my friend from Utah has made headlines and made a 
statement here today that he believes your reaction should be 
one of maximum force. I guess we should read that to mean that 
he should be shot on sight when he crosses the fence, when he 
goes over the fence.
    I am very reluctant to join him in that kind of advice to 
the Secret Service because there is a First Family in the White 
House. There are guests in the White House. It is a busy and 
bustling place. And the idea that we're going to have a shoot-
out on the White House grounds seems to me a last resort, not a 
first resort. And I am not sure Members of Congress ought to be 
in the business of actually spelling out Secret Service 
protocols for you. I am not sure that's our competence.
    But having said that, one can still conclude that the 
reaction of the Secret Service on sight was profoundly 
inadequate and, actually, potentially put the First Family in 
direct jeopardy, physical harm.
    And I don't sense from you, Director Pierson, a sense of 
outrage about that, a sense of mission that you want to reform 
and correct this cascading set of mistakes that led to, 
potentially, a catastrophe for the United States.
    Could you comment.
    Ms. Pierson. I am sorry you don't get that sense from me. I 
have spent a career in the United States Secret Service, 
protecting Presidents, their families, and the White House 
complex, in addition to our other missions.
    There is nothing more sacred to any Secret Service agent, 
Uniformed Division officer or Administrative-Technical 
Professional Employee, than our responsibilities for mission 
success. We don't take it lightly.
    But we do it under very difficult and challenging 
conditions. There is not a lot we can do in managing 
individuals with mental illness who do not commit a crime or 
who do not put themselves in a position where the Secret 
Service can take further actions against them. We are limited 
by the system that we have to work within, the laws of our 
country.
    Mr. Connolly. Ms. Pierson, I don't doubt for a minute your 
sincerity. What I said was I don't sense any sense of outrage 
about what happened.
    Ms. Pierson. We all are outraged within the Secret Service 
of how this incident came to pass, and that is why I have asked 
for a full review. It is obvious. It is obvious that mistakes 
were made. It is self-evident that mistakes were made.
    We must identify what the facts are, learn from the facts, 
assess and make changes, enhance training, to ensure that this 
never happens again. The Secret Service has a proud history of 
making sure that we go back and look and do after-actions after 
every incident so that we can apply better security measures to 
ensure the protection of those we are bound to protect.
    Mr. Connolly. I think that's really important, and I think 
it is really important in this discussion and this hearing that 
we remember there are real human beings whose safety and 
security is at stake.
    And it just so happens one of those human beings was 
elected not once, but twice, by a majority of this country to 
be its President, and that sacred responsibility has to be 
uppermost in our minds, even if that means that reputations 
fall, careers get interrupted, demotions occur, or people get 
fired. His safety and that of his family is the paramount 
concern here, and that's what we all need to be concerned 
about.
    Thank you, Mr. Chairman. My time is up.
    Chairman Issa. Thank you.
    We now go to a gentleman who served in what I think fairly 
is called difficult conditions both in Vietnam and in Iraq. And 
with all due respect, I think he will object to your calling 
working at the White House a difficult environment.
    The gentleman from Michigan, Mr. Bentivolio, is recognized.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    Mr. Basham and Ms. Pierson, thank you very much for your 
service in the Secret Service, one of the premier law 
enforcement agencies, in my opinion, an aspiration many, many 
years ago, from investigating counterfeiters to protecting the 
President of the United States. I commend you all for your 
dedicated service in the past.
    Mr. Basham--did I pronounce that right?
    Mr. Basham. ``Basham.''
    Mr. Bentivolio. ``Basham.'' Thank you very much.
    In your introduction, you said you went from--well, we have 
an intruder that got into the White House and went 30 yards and 
was finally apprehended and we have a hearing about that right 
now. And you said we would have a hearing as well had we shot 
him once he jumped the fence. And you're absolutely right.
    But I was trained that you only use as much force as is 
absolutely necessary to subdue or fix the problem, never any 
more undue force. And that's a difficult challenge in itself; 
is it not?
    But we have dogs patrolling the White House, and you seem 
to have forgotten about 10 other, probably, protocols you could 
have used to subdue that person before they went into the White 
House. Correct?
    Mr. Basham. You're absolutely correct.
    Mr. Bentivolio. All right. So in the after-action review, 
were any of those considered? And what other actions could they 
have taken to stop this intruder before he entered the White 
House?
    Mr. Basham. Clearly, as the Director has stated, there were 
mistakes, there were failures, there were opportunities to take 
this individual down based upon the reactions of the officers 
that were in place at the time. And they clearly did not take 
those actions.
    And that is why the Director has to--and the staff has to 
determine why they made those decisions or lack of making those 
decisions and understand what was going through their minds, 
what was going on on the White House grounds at the time, what 
was the clutter situation. They need to have the time to do the 
investigation to determine what the circumstances were on the 
ground.
    Mr. Bentivolio. But they had the opportunity to do an 
investigation when they--well, they found out that there was--
Mr. Gonzalez had guns in his car, he had a map to the White 
House. I would have been asking a lot more questions other than 
just letting him go.
    Why wasn't he brought in for further questioning by the 
Secret Service especially?
    I mean, just the map alone--I think lawyers call that a 
preponderance of evidence, indicating that he had some intent 
in doing something wrong or illegal, jeopardizing the President 
of the United States and the White House.
    Why wasn't he brought in for questioning then?
    Mr. Basham. I believe the Director did state that the 
individual was interviewed and that the agents made a 
determination--which is a very difficult determination to 
make--as to whether the individual truly represents a threat to 
the President of the United States.
    Mr. Bentivolio. Are we privy to those questions and that 
report, Mr. Chairman? Do we have access to that report?
    Chairman Issa. In an appropriate setting, we'll make them 
available.
    Mr. Bentivolio. Great.
    Mr. Basham. Even subsequent to that, when they interviewed 
him when he was at the White House, unless he is breaking the 
law, there is no power that the Secret Service has to take this 
individual into custody, and that is the difficulty that they 
face.
    And, you know, I totally agree with the Representative, 
that I do not believe that we want the Secret Service's first 
action on the White House ground when someone climbs over the 
fence, what, 16 times in the last 5 years--that the Secret 
Service's first reaction is to kill that person. That is, in my 
mind, not acceptable to me or to the American people.
    Mr. Bentivolio. Well, I agree.
    But there is an element of--there is responses that are 
well within the power of the Secret Service to protect the 
intruder when they jump the fence and come in, use of dogs, for 
instance, a mass going--a mass of Secret Service agents heading 
in that direction to take down that individual. But at the same 
time, they have to--it could be a diversion.
    So there's a lot of things going on in the Secret Service's 
head, I am sure, when we have an intruder like that. But I just 
have a real--well, I think I am out of time.
    Mr. Basham. But I will say, in 1976, there was an 
individual who came over the fence, apparently was carrying 
some type of device that was--appeared to be a weapon, but 
turned out to be a pipe, and they shot him. And there was 
criticism for that shooting in 1976. This is a difficult, 
difficult balance to strike.
    Mr. Bentivolio. I understand. And I am out of time.
    Thank you very much, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Pennsylvania, Mr. 
Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Director Pierson, you have served in the Secret Service for 
30 years. You have served under both Republican and Democratic 
administrations.
    And so you know--and you have stated publicly that this 
recent security breach was unacceptable, and we've heard other 
adjectives here today from both sides of the dais: profoundly 
inadequate, shocking, disgraceful, outrageous.
    Is there any one of those adjectives you disagree with?
    Ms. Pierson. No.
    Mr. Cartwright. Thank you.
    And there have been--there has been some discussion about 
what we knew about the person leading up to the incident where 
he jumped the fence and crashed the White House.
    We actually had his medical records, did we not, before he 
jumped the fence?
    Ms. Pierson. I believe we had received the medical records 
and they were being reviewed prior to him jumping the fence.
    Mr. Cartwright. So with everything else we knew--we stopped 
him, he had a carload of high offensive ammunition and guns, 
and he had a map to the White House--you know, he just about 
was wearing a hat saying ``I am the most dangerous person who 
could come to the White House,'' and, yet, all of these things 
happened. And not to put too fine a point on it, Director 
Pierson, there were numerous layers of security that he was 
able to flummox.
    A surveillance team outside the fence reportedly did not 
spot Mr. Gonzalez quickly enough to give an early warning. An 
officer stationed in a guard booth as well as a SWAT team on 
the North Lawn reportedly did not react in time. A dog trained 
to intercept intruders reportedly was not released. No officer 
reportedly was stationed outside the front entrance of the 
White House, and the door was left unlocked. And then just 
yesterday press accounts reported that Mr. Gonzalez made it all 
the way into the East Room and that the alarms had been 
silenced.
    To me, all of those adjectives apply. This was a stunning, 
outrageous, disgraceful breach. And I know you can't discuss 
specific details and we are going to go into executive session 
so that you can be more forthcoming about tactics and 
procedures, but I want to start here with broader questions.
    First, I assume that the Secret Service has a specific 
protocol--or multiple protocols for handling these types of 
breaches. Am I correct in that?
    Ms. Pierson. Yes, sir. We do.
    Mr. Cartwright. And without getting into those protocols 
themselves and providing anybody at large a road map, can you 
tell us whether they were followed in this case.
    Ms. Pierson. No, they were not.
    Mr. Cartwright. And why weren't they followed, Ms. Pierson?
    Ms. Pierson. I do not know. And that is going to be one of 
the main issues that I hope to resolve through the course of 
this investigation.
    Mr. Cartwright. Well, I think it is--we have said multiple 
times here that you have been on the job, what, for about a 
year and a half now and you're on the job to reestablish the 
credibility and the reputation of the Secret Service as the 
finest, most formidable protective force on the face of the 
Earth. Is that a fair statement?
    Ms. Pierson. Yes, sir.
    Mr. Cartwright. If someone wants to do us harm, it behooves 
all of us to remember that right now you are protecting the 
most threatened American President in our Nation's history.
    It is kind of a bad time to have something like this 
happen, isn't it, Ms. Pierson?
    Ms. Pierson. It is never acceptable to have an individual 
breach the White House.
    Mr. Cartwright. So would you please explain to me in terms 
that you can reveal in public what you have done since becoming 
the new Director of the Secret Service to turn this Agency 
around and prevent things like this from happening.
    Ms. Pierson. From the start of my appointment, I have made 
it perfectly clear to the workforce of my expectations for 
professionalism and accountability. How that was accomplished: 
by the establishment of a new Office of Integrity, the 
establishment of a new table of penalties for a discipline 
process that is more transparent and consistent and well known 
to the workforce as to what the expectations and the level of 
tolerance will be. I personally have a zero tolerance level 
when it comes to misconduct, and we are addressing it 
accordingly.
    In addition to that, training is critically important and 
developing leaders is critically important. This year we have 
established a lot of in-service training for our workforce as 
well as specialized training for our leadership. I have had a 
lot of personal engagement with my supervisors and the 
workforce.
    When I became Director, I had over 70 professional 
supervisory positions that were vacant. I made those 
promotions. I offered orientation to those new supervisors, and 
I have continued to make sure that there is no doubt that we 
are going to be held to the highest standard that the American 
public expects.
    I do understand, when you start to bring change into an 
organization, there is pushback. We're going to continue to 
improve. This incident is an operational incident. Although it 
is being addressed, it is very similar--or a side effect of 
some of the other cultural problems. I looked at this as a 
strict tactical concern. We have a security procedure that 
wasn't followed.
    One week prior an individual had climbed the fence and was 
arrested within seconds. Why didn't that same activity happen 
on the night of the 19th? That is part of my concern, and that 
is what we're investigating. I agree that mistakes were made 
and the proper protocols were not followed. It is unacceptable.
    Mr. Cartwright. Ms. Pierson, my time is up, and I look 
forward to closer questioning in the executive session.
    I yield back the balance of my time.
    Mr. Mica. [Presiding.] I thank the witness.
    And I recognize the gentleman from Florida, Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Director Pierson, you had just said that this was an 
operational failure. So I just want to be clear. Because there 
was talk about salaries, the number of personnel, budgets.
    This September 19 failure was in no way related to a lack 
of funding or personnel. Is that accurate to say?
    Ms. Pierson. It is accurate to say that the officers on 
duty that night failed to execute the security protocols that 
they should have.
    Mr. DeSantis. But you're not saying it is a 100 percent 
operational failure. You're saying that it may be--you're not 
ruling out that this may be a resource issue. Correct?
    Ms. Pierson. I do believe that we need to look at our 
training protocols and our staffing protocols. And so, yes, 
that would refer back to resourcing.
    Mr. DeSantis. Okay. Because I think--and the budgets have 
been mentioned--the budget request for fiscal year 2014 from 
the Agency was $822.6 million for salaries and expenses, but, 
yet, Congress appropriated $846.7 million for salaries and 
expenses. So there is a disconnect here, and I think that--let 
me ask you this relating to this:
    You have a guy, Gonzalez. All the agents know who he is by 
this time on September 19 because he had been arrested in 
Virginia. He had weapons, ammunition, a map with the White 
House circled. So this is clearly something that would have 
been disseminated to the agents. He's able to, of course, leap 
the fence and get deep inside the White House.
    How many Secret Service agents stood between him 
penetrating that first fence and getting in? In other words, 
were there just not enough people there? How many people were 
there?
    Ms. Pierson. The White House complex is secured, and the 
building is defended by the United States Secret Service 
Uniformed Division, and I can provide you information in a 
different setting as to the location and numbers of personnel.
    Mr. DeSantis. Because I noticed for this hearing you--there 
was a request of the Sergeant at Arms for people to accompany 
you to this hearing, and I believe that they're probably 
sitting behind you.
    How many people have accompanied you to this hearing today? 
Do you know?
    Ms. Pierson. I would believe 12 of my senior managers.
    Mr. DeSantis. Okay. Because we had a request for 18 
personnel, but you say maybe only 12. So at least 12, maybe 
more, are accompanying you here for testimony, which is 
important, but it kind of cuts against this idea that we're at 
a manpower shortage, especially in some of the numbers that we 
have been doing.
    Let me ask you this about the culture of the Agency. Now, a 
number of incidents have been raised. You had the celebrity 
crash the White House dinner a few years back; of course, the 
2011 shooting incident, and the Agency's poor response to that 
has been talked about; you did have the 2013 May incident at 
the Hay-Adams Hotel involving an agent; a Miami 2014 car 
accident involving agents with alcohol suspected; in the 
Netherlands, 2014, excessive drinking by agents, and some had 
to be sent home; and, of course, what got the most publicity, 
probably, is the 2012 incident in Colombia.
    So a lot of people look at this and I think they think that 
there are, obviously, a lot of good people in the Secret 
Service, but they think there may be a cultural problem. Now, 
you say you don't think that the September 19 breach is a 
result of that culture.
    But let me ask you: How do you assess the health of the 
culture in the Secret Service right now?
    Ms. Pierson. Well, since becoming Director, we have 
established an Office of Integrity. I have made my position 
known on the level of professionalism that is expected, 
accountability at all levels.
    I have met personally with every front-line supervisor up 
to my SES managers and have provided them some additional 
training to ensure that they know how to lead, that they know 
how to manage and they know how to work with this dedicated 
workforce.
    At the same time, we are providing training for the 
workforce, but we are doing it at the same time that we are 
meeting very difficult protective requirements and 
investigative requirements around the world.
    I believe that we have started to make a pretty significant 
transition within the organization in recognizing that we have 
made missteps and that we need to learn from these incidents 
and improve.
    Mr. DeSantis. And you think that the steps that you have 
taken have resulted in a discernible improvement in the 
culture?
    Ms. Pierson. I think these steps, along with continuing to 
promote and support new management, will help us in that 
process.
    Mr. DeSantis. Thank you.
    Mr. Meadows. Will the gentleman yield for a follow-up?
    Mr. DeSantis. I yield to the gentleman from North Carolina.
    Mr. Meadows. Let me just ask a follow-up because it gets 
back to this budget question.
    So, under your direction, was there a reduction in the 
counter-surveillance manpower under your directorship?
    Ms. Pierson. Under my directorship?
    Mr. Meadows. Yes.
    Ms. Pierson. I established a new permanent division----
    Mr. Meadows. Was there a reduction? Yes or no?
    Ms. Pierson. I don't believe there was a reduction. No.
    Mr. Meadows. Okay. Because the whistleblower seemed to 
indicate that there is a study that recommended that there 
should be 100 people for counter-surveillance and that you 
personally made the decision to cut that by a third. Is that 
not correct?
    Mr. Mica. The witness can answer. And the time has expired.
    Would you answer, please.
    Ms. Pierson. Yes.
    I would like to review that study. I know that we have 
asked for a study in the past that related to counter-
surveillance and counter-surveillance methodologies to be 
employed by the Secret Service in the context of the National 
Capital Region, and we earlier this year established a counter-
surveillance division and staffed it with what we believe are 
the appropriate resources for this time. And we'll continue to 
go back and look at that process and see how we need to 
continue to resource it as appropriate.
    Mr. Mica. I thank the witness.
    I recognize the gentlewoman from Illinois, Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I have tremendous respect for the members of the Secret 
Service, and I can't believe that I am about to begin this line 
of questioning as a Member of Congress because it should never 
have gotten to this point where I have to ask you these 
questions.
    Specifically, I would like to touch on your AAR process, 
the after-action review process.
    Do you conduct AARs? You mentioned that you did earlier. 
But do you?
    Ms. Pierson. Yes. We do refer to them as fact-finding.
    Ms. Duckworth. Okay. Do you conduct fact-finding at all 
levels? For example, following the Hernandez shooting incident, 
were there fact-finding sessions conducted at every level, for 
example, with the personnel that were on the White House 
grounds that night, maybe during the shift change brief, maybe 
the next morning at the next shift change and then all the way 
up the region and then all the way up to the director level? 
Would that be a normal course of action?
    Ms. Pierson. Yes, it would.
    Ms. Duckworth. So, at the fact-finding sessions, once you 
discover something that is deficient, do you then change your 
procedures based on what you learn at the fact-finding 
sessions?
    Ms. Pierson. Yes, we would.
    Ms. Duckworth. Have you changed your procedures for when 
the White House comes under a shooting incident?
    For example, if the shooting happened at 9 p.m. at night 
and it was too dark then, I am not sure why you don't have 
access to flashlights and spotlights to check the White House 
in the evening. But okay. It was too dark.
    Do you now have a procedure for checking the entire 
building, including the third floor, either at night or the 
next day? Is that now part of the new procedures?
    Ms. Pierson. Yes, it is. And, again, that night--it is a 
three-story building. So oftentimes it would require lift 
trucks and such. But we do have a better protocol now to ensure 
that proper sweeps are done across the complex as a result of 
that after-action.
    Ms. Duckworth. It is the people's house and the President 
of the United States. I think the American public would 
begrudge a lift truck at night to go check the outside of the 
building, I would imagine, but you have that procedure in 
place.
    So if there is a suspected shooting incident, it would be 
sooner than 3 or 4 days and the housekeeper before we find the 
bullets in the side of the White House because of the new 
procedures. Correct?
    Ms. Pierson. Yes, ma'am. Lessons learned.
    Ms. Duckworth. Okay. Post-Hernandez, the first--I am sorry. 
The--not Hernandez--the recent breach that just happened--after 
he was initially apprehended with the ax in his waistband and 
he had this story, were information of that apprehension or 
that discussion that those agents had with him--was that 
shared--would have been shared as part of the fact-finding the 
next day at a shift?
    Would pictures of him have been shown to the officers 
coming on shift--on the next shift, ``Hey, we stopped this guy. 
He had an ax in his waistband. He had all this ammo in his car. 
Watch out for him. He may come by''? Was that ever done?
    Ms. Pierson. It is my understanding that he was initially 
observed by members of our counter-surveillance division. So I 
am assuming--and I would have to get back to the committee--
that that would be part of the protocol of our counter-
surveillance division as well as our Uniformed Division 
officers that are frequently seeing these people come along the 
south fence line.
    Ms. Duckworth. Okay. Would that have been shared with all 
of the officers stationed along the south fence line or who 
might have contact with passersby, ``This guy's been by a 
couple times. He's''--you know, ``keep an eye out for him''? Is 
that a standard thing that would now happen as part of your 
procedures every shift?
    Ms. Pierson. I would assume it is discussed, but I don't 
know to what specificity it is physically reported amongst 
Uniformed Division. But the information that Mr. Gonzalez had 
appeared on the south fence line, was interviewed, his car 
was--he consent to a search to his vehicle--all of that was in 
a written report provided and supplemented a part of Mr. 
Gonzalez's contact.
    Ms. Duckworth. What about any results from fact-finding 
that spoke to the lack of communications between the agents who 
were safeguarding the First Daughters being on a different 
frequency as the agents who were taught responding to the 
2011--the shooting incident?
    My understanding is that the agent inside did not know--
because she did not hear traffic--that the suspected shooting 
had happened and did not find out about it until through a 
third party, another agent.
    Has that been fixed? Now are all the agents listening to 
multiple frequencies?
    Ms. Pierson. Our protocol would require that all agents are 
notified regardless of their assignment for that type of 
incident with a shooting on the complex. So, yes, I would say 
that information is now passed through our joint operations 
system.
    Ms. Duckworth. I am running out of time.
    I am just very concerned that we're not learning from 
lessons learned, that these things are happening--whether or 
not the fact-finding sessions are happening, this information 
is not disseminated in some way.
    And I would love to maybe end up in executive session or 
something to touch more on how you're fixing and updating your 
protocols because this seems pretty standard to me.
    With that, I yield back, Mr. Chairman.
    Mr. Mica. Well, thank you.
    And I am going to recognize myself.
    Welcome, Director Pierson. There has been a lot of chest-
beating, and there has been a lot of beating up of the Director 
today.
    And I want to give you an opportunity to talk about not 
just what took place, but also what we can do to make certain 
that the White House is safe, the First Family is safe, and 
these incidents don't happen again.
    There are basically two things that we deal with to do 
that. One would be personnel, your personnel, and the second 
would be technology. I would believe those two would resolve 
the problem in the future.
    Since you came in sort of to clean up some of the mess--the 
problems with performance, the problems with morale--I will 
say, too, that you're the first Director in 22 years to ever 
call me personally and ask for some assistance.
    Before this incident took place, folks, she actually called 
and she said, ``I want to improve the quality of our 
personnel,'' and she asked for, actually, two things. And they 
are still pending before this committee, interestingly enough. 
I just checked.
    But one was to improve the standards for the agents. I know 
there had been a lack of academy training and not a lot of 
folks trained.
    But you were also--and you formerly headed HR, concerned 
about the agents. Is that correct?
    Ms. Pierson. Yes, sir.
    Mr. Mica. Okay. And then, also, the ability to hire and 
fire. We saw in the VA scandal the hands tied to hire and fire.
    And you asked for--I guess to create--to call the service 
an exempt service. Is that correct?
    Ms. Pierson. Yes, sir. It is referred to as excepted 
service.
    Mr. Mica. Yes.
    And that would be--would give you more ability to 
discipline.
    I asked the staff the status of those, and it is still 
pending. There has been some objection from the other side of 
the aisle even to take them up. So I thank you for stepping 
forward and, also, for recommending that.
    Little things like technology--now, you weren't the 
Director in 2011 when the bullets hit the White House, were 
you?
    Ms. Pierson. No, sir, I was not.
    Mr. Mica. Well, you got beat up pretty good on that one 
today.
    But it is kind of interesting that the White House--and, 
really, they discovered some concrete or something that had 
been chipped out of a balcony that isn't examined and was--the 
surface area of the White House is quite a bit, and you would 
want to examine some of it. And that wasn't done at 9:50 at 
night, whatever it was.
    But the fact remains that a window was broken. Now, that 
concerns me because, at my house, I have a security system. If 
a window is breached--actually, when I left this morning, I 
didn't want to disturb my wife quite early, but the security 
alarm sort of notifies you that someone's coming in or going 
out. I don't have a very sophisticated system.
    But a window breaking in the White House in 2011, it seems 
like that should--and I know there are two barriers. One is 
bulletproof, and the other is the original--or antique glass. 
That should have been taken care of.
    Has that been taken care of? Do you know?
    Ms. Pierson. I know that the windows have been replaced.
    Mr. Mica. No. I am talking about security for breaching 
that.
    Again, a simple thing. If someone opens a window or a 
window is broken at my house, I have an alarm. Have you ever 
heard of these guys? It is not very costly. You can subscribe. 
But that can be installed. It is a simple technology device and 
company, private system, that can do that. So I don't think we 
have to spend a lot of money.
    I think, one, we have got to improve the quality and 
professionalism, which you're trying to do. You have got to be 
able to hire and fire people. And you have to put some 
technology in place. We don't have to put cement trucks and 
barriers in front of the White House. It is the people's house.
    Now, do you know when the current 7-foot, 6-inch fence was 
installed?
    Ms. Pierson. 1965.
    Mr. Mica. 1965.
    And I don't want to go through some outrageous things. I 
know the taxpayers have to fund this. But maybe we could raise 
that a little bit.
    The other thing, too, is you are part of the--you have 
lived in Florida. We could even put some vegetation barriers, 
simple things like--how about Spanish bayonet? You jump that 
fence and you get quite a greeting when you hit the ground. 
Inexpensive vegetation barriers.
    But there is a whole host of things that we can do cost 
effectively. So I hope you will consider some of them as we 
look at some solutions.
    Jumping the fence at the White House is not new. Is that 
right?
    Ms. Pierson. That is correct, sir.
    Mr. Mica. But what has happened is they went beyond the 
barrier.
    The other thing, too, is I understand the President and the 
First Family were not at the White House when this took place 
and sometimes the security personnel and Secret Service do get 
refocused to address where the President is.
    And he had just departed. Is that correct?
    Ms. Pierson. That is correct.
    Mr. Mica. Okay. Well, again, welcome to the Government 
Reform and Oversight Committee. It is good to have you here 
today. Thank you.
    Mr. Tierney. Mr. Chairman, can I just make an inquiry?
    Mr. Mica. Sure.
    Mr. Tierney. You made some reference during your remarks 
that the Director had made two requests and some--there was 
some objection from this side.
    Could you expand on that for us. Because we're not aware of 
that, as far as I know.
    Mr. Mica. She told you the two requests that were made.
    Mr. Tierney. Right.
    Mr. Mica. She actually contacted me. We contacted staff. 
And we have asked staff to look at it. I asked the staff just 
now.
    I said, ``Well, what is the status of that?''
    And they said there was--I said, ``Have we moved forward on 
her request?''
    They said, ``No.''
    I said, ``Why?''
    They said, ``Because some of the staff''--or ``some of the 
Members on the other side of the aisle objected to that.''
    And, I mean, you can object to it----
    Mr. Tierney. Well, I don't think anybody has. That is my 
point. We're not aware of that.
    Mr. Mica. The Director has taken steps to improve both the 
performance----
    Mr. Tierney. Mr. Chairman, we understand that and we are 
willing to accept that.
    Mr. Mica. And the qualifications and the status of one of 
the most respected law enforcement services in the world, not 
just----
    Mr. Tierney. We're appreciative of that. I think--and we 
don't disagree that she did that.
    Mr. Mica. I am just telling----
    Mr. Tierney. Where we disagree is nobody on this side knows 
what you are talking about.
    Mr. Mica. I have got to tell it like it is, and that is how 
it is.
    Mr. Tierney. No. You are telling us like somebody told you 
it was.
    Mr. Mica. Well, that is the facts.
    So, again, she testified under oath that she did contact me 
in that regard. I asked staff. And that is the status of that.
    Mr. Cummings. Would the chairman yield just for a moment, 
please?
    Mr. Mica. Yes.
    Mr. Cummings. Would the chairman yield just for a moment?
    Mr. Mica. Yes.
    Mr. Cummings. I just want to make something very, very 
clear. On this side of the aisle, we will do everything in our 
power to make sure that the Secret Service has everything it 
needs----
    Mr. Mica. There, too, I----
    Mr. Cummings. Let me--may I finish, please?
    Mr. Mica. Yes. Go right ahead.
    Mr. Cummings. --it needs to protect the President, his 
family, the Vice President, his family, the families of--and 
the President--and our former Presidents.
    This is extremely important to us. And I don't want this 
hearing or anybody to get the impression that we are not a 
million percent supportive of making sure that the Secret 
Service has what it needs legislatively or financially.
    Mr. Mica. Well, I thank the gentleman. And I know he'll 
work with us to try to accommodate the request of the Director.
    Does the gentleman from----
    Chairman Issa. [Presiding.] Would the chairman yield?
    Mr. Mica. Yes.
    Chairman Issa. Perhaps just to clear the record, I think 
that the entire committee needs to be aware that there have 
been requests to have personnel standings of exempt changed, in 
some cases, to make them easier to terminate. Now, that is a 
debate we can certainly have.
    I do believe today that, although that is something the 
committee should consider--and I am certainly supportive of at 
this level people being subject to disciplinary action if 
they're unable to fulfill their mission easier--I don't believe 
today that is the basis under which these various failures 
occurred. So--and I am happy to have a discussion later on the 
details of the personnel changes, but that was the limit.
    And, again, for the Director, I did receive that.
    I did not--because we can't immediately act on it 
unilaterally, but I don't believe it has anything to do with 
today's--the number of failures. It may have something to do 
with low morale. But, then again, if you make people easier to 
fire, that also sometimes leads to low morale.
    Mr. Mica. Well, respectfully stating my point on this, I 
think the Director has taken on the responsibility of improving 
the performance, and very key to that is also the educational 
qualifications, which she asked, and the ability to hire and 
fire people.
    And I think they are relevant because, when you don't have 
discipline, you don't have good performance. And when the 
Director doesn't have the tools to accomplish that, then we 
don't get what we should.
    With that, Mr. Horsford, the gentleman from Nevada, is 
recognized.
    Mr. Horsford. I want to thank Chairman Issa and the ranking 
member, Mr. Cummings, for holding this extremely important 
hearing.
    Director Pierson, let me be frank. I believe that you have 
done a disservice to the President of the United States. Not 
only have you compromised his safety and security, you have 
compromised the safety and security of his family and the staff 
of the White House. The pattern of lax security and following 
basic protocols indicate a culture at the Secret Service that 
needs to change.
    Now, while the President may not be in a position to 
publicly criticize this failure to adequately protect his 
needs, I will. This President has far too much to worry about 
both here and around the world. He should not have to also be 
concerned with his personal safety and security and that of his 
family.
    So my question, Director, is: Why should we have confidence 
in the Secret Service's ability to protect the President of the 
United States and the First Family when there has been such a 
pattern of lax security?
    Ms. Pierson. I believe the incident on September 19 is not 
representative of pattern. As I have stated, there have been 
others that have attempted to gain access to the property that 
were immediately arrested. My biggest concern is that security 
plan--that effective security plan was not properly executed on 
the night of the 19th.
    Mr. Horsford. Beyond September 19, which is the most recent 
incident, the fact that we are just now learning from the 
Washington Post that ran a story about the 2011 shooting 
incident where Ortega-Hernandez fired at the White House, it 
took 4 days for the Secret Service to realize that bullets 
actually hit the White House residence, and that only occurred 
after a housekeeper and an usher identified the concern because 
of a broken window.
    Can a broken window be observed visibly from both the 
inside of the White House as well as the outside?
    Ms. Pierson. In this case, the location of the broken 
window, up against the mansion facade, along the trim and 
balcony, it was not visible from the exterior.
    Mr. Horsford. From the exterior.
    What about the interior?
    Ms. Pierson. The interior, in the private residence of the 
President and the First Lady, there were indications that the 
ballistic glass had a dimple, or actual damage to the ballistic 
glass. It was not recognized by the housekeeping staff until 
the curtains had been pulled in preparation for the President 
and First Lady's return.
    Mr. Horsford. And so how was it that the Secret Service 
personnel, prior to the housekeeper finding that--they did not 
do the proper assessment, inspection of that location in order 
to identify that until 4 days later?
    Ms. Pierson. I will be happy to have a discussion with you 
in a private session. But, typically, the private residence of 
the President and First Lady is just that. It is their private 
residence.
    Mr. Horsford. Well, I understand that you are not able to 
discuss all of the exact details of some of the security 
protocols in this open hearing, and I look forward to asking 
you more detailed, step-by-step questions about the exact 
protocols that failed, the missteps by individual agents, and 
the depth and breadth of this review that the investigation of 
this incident covers.
    Has there been any disciplinary action pursued against any 
of the personnel who failed to follow proper protocol to date?
    Ms. Pierson. That is pending, based upon the conclusion of 
the investigation to determine exactly what the facts are, and, 
appropriately, enhancements will be made and personnel actions 
will be taken.
    Mr. Horsford. And that is where I tend to differ a little 
bit. Because of this pattern of lax security not just from the 
most recent incident, but from prior incidences, someone should 
be held accountable. The security of the President of the 
United States is serious and his family is serious, and we 
don't need a long, lengthy review for someone to be held 
accountable.
    So I look forward to getting more facts about this in our 
executive briefing. But, ultimately, Director, we need to make 
sure that people are held accountable. There are men and women 
in the Secret Service that do a great job, and they are to be 
commended for that job. But when an individual fails to do 
their job properly, they need to be held accountable.
    Ms. Pierson. I agree with that statement. People make 
mistakes. They need to be held accountable.
    Chairman Issa. Thank you.
    For all members, as we near the end of this hearing, we 
will be going into executive session upstairs at the 
subcommittee room immediately following this.
    The gentlelady from New Mexico, Ms. Grisham, is next.
    Ms. Lujan Grisham. Mr. Chairman, thank you very much.
    I want to do a couple of things. I want to go back to many 
of the statements that have been made today, and I want to try 
to fast-forward to the situation that we're all dealing with. 
And then I have got a very specific question about a protocol 
that I am hoping not in executive session you can answer.
    So we're all trying to figure out what we can do in this 
hearing to understand this incredible breach but, at the same 
time, recognize that this is a--the people's house, a public 
building, and to work on those balances.
    And you have heard many Members be concerned about the 
thought that we would have sort of a shoot to kill first. And, 
of course, I think about earlier--I think in this year we had a 
toddler breach the fence.
    And so it is clear, for me, at least, that that is too far 
and want to create an environment where we all feel that there 
is a public safety aspect here.
    But I think in your earlier testimony you said that we have 
had 60 individuals try to breach the fence this year. So that 
is, roughly, one a week.
    Ms. Pierson. 16 over 5 years. Six individuals this year.
    Ms. Lujan Grisham. This year.
    In any event, so this--we know that folks, whether it is a 
mental illness issue or something in addition to that--we know 
that we have an issue.
    And I also heard you earlier in your testimony talk about 
part of your career in the Secret Service, that you were, at 
one point in time, working on some of the IT issues. Is that 
correct?
    Ms. Pierson. Yes, ma'am.
    Ms. Lujan Grisham. So I am going to now go back to the 2011 
incident, and I am going to read to you what the Washington 
Post said about that shooting incident. And I know that we have 
said this several times. It bears repeating.
    ``Back in the White House, key people in charge of the 
safety of the President's family were not initially aware that 
a shooting occurred. Because officers guarding the White House 
grounds communicate on a different radio frequency from the 
ones used by agents who protect the First Family, the agent 
assigned to Sasha learned of the shooting a few minutes later 
from an officer posted nearby.''
    Now, while communications and radio dispatch in and of 
themselves may not be narrowly construed as IT, I construe 
communications efforts, particularly in the context of 
interoperability, to be definitely inside that realm.
    Since 2011, have you resolved those communication issues?
    Ms. Pierson. Yes. And as a result of the incident, we have 
ensured that information is passed--even if agents, officers or 
others are operating on different radio frequencies, that that 
same information is passed--that emergency information is 
passed to all people who have a need to know.
    Ms. Lujan Grisham. So all of the radio frequencies are 
now--you are communicating on a single or--and that may be an 
inappropriate statement about how that works--but they're all 
interoperable. All those communications techniques are working 
collectively and so are the alarms?
    Ms. Pierson. The radio systems are operating with 
commonality, and that is controlled through our joint 
operations center. So agents and officers are allowed to 
operate on particular frequencies based upon their work.
    The alarm systems are now becoming more and more integrated 
with some of our radio systems, but we are still in that 
transition phase.
    Ms. Lujan Grisham. Because I'm really--among all of the 
other issues, I'm really struggling with the communications and 
the unilateral efforts by any personnel to decide not to have 
an alarm, such as the door, by the ushers or anybody else.
    And I'm really trying to understand that, if you are doing 
this continuous improvement, training, investments and making 
sure that this elite protective force is, in fact, just that--
state of the art, effective, elite--how that miscommunication 
could occur without anyone having any idea. And, for me, it is 
gross neglect.
    How does that occur? How does somebody at that level 
interfere with the protocol established by the Secret Service?
    Ms. Pierson. I think the concern was, when these alarms 
were put into place, the proximity to other activities within 
the White House, it could be an interference, such as the tour 
lines or other public events.
    Ms. Lujan Grisham. So an interference. And I said that I 
think that you need to be able to address the balances of the 
public visiting, utilizing, meeting at the White House.
    But it is stunning to me that that would trump your own 
protocols from making sure that you have alarms whose purpose 
is to trigger a threat so that you can have an effective, 
global within the Secret Service, both interior and exterior--a 
communications plan that would allow you to effectively execute 
a protocol. Otherwise, you can't.
    And I know I'm out of my time. But something is wrong with 
this idea----
    Chairman Issa. We will be going into a classified session. 
I think that is going to help. I thank the gentlelady.
    The chair would announce that we now have two members who 
have been waved on that will ask their questions. That will 
complete the full round.
    With the indulgence of the ranking member, we're going to 
have an additional 5 minutes per side divided by whoever Mr. 
Cummings would like to recognize, myself, and then we will go 
upstairs into an executive session.
    So 5 minutes a side for our two guest members, then 5 
minutes a side, which will include closing. So that will give 
everyone an understanding that roughly 10 minutes--or 20 
minutes from now we will conclude, for anyone--any staff who 
want to make sure their Members are available upstairs.
    And, with that, the gentleman from Missouri, Mr. Long.
    Mr. Long. Thank you, Mr. Chairman.
    Director Pierson, are your agents that are charged with 
guarding the White House and guarding the occupants of the 
White House--are they allowed to use smartphones while on 
duty--and I'm talking about personal smartphones--texting, 
tweeting, playing games? Are they allowed to use personal 
smartphones while on duty?
    Ms. Pierson. No. They would not be.
    Mr. Long. And that is strictly enforced? You are confident?
    Ms. Pierson. I know that they have access to a Blackberry, 
which is part of the tools that we give our officers and agents 
to receive information and pass information.
    Mr. Long. That is an official phone, to me.
    Ms. Pierson. Yes.
    Mr. Long. That is something that they need in their day to 
day to say go this gate or that or watch for this guy. But I am 
talking about personal smartphone usage.
    You say they are not allowed to do that while on duty, 
guarding the White House and its occupants?
    Ms. Pierson. It is possible that some employees have a 
personal cell phone for emergency contact by their family, but 
they are discouraged from using any kind of technology----
    Mr. Long. They are discouraged from using. Okay.
    A week before someone was caught jumping a fence. A week 
later someone was not. Correct?
    Ms. Pierson. Yes, sir.
    Mr. Long. Okay. Were you at the White House picnic this 
year?
    Ms. Pierson. No, I was not.
    Mr. Long. Okay. I am sure you are familiar with it.
    Do you know when it was? I'll answer that. It was 2 days 
before the event.
    At the White House picnic, it was Senators, Congressmen, 
Republicans, Democrats. Everyone is invited. Our families were 
invited. We took our families. We get stopped at the street. We 
have to show an ID, Members of Congress, Senators, our 
families.
    They are checking the books, making sure everything is in 
order to let us go another--I want to say 70 yards. I don't 
know exactly, but just down the sidewalk a little tiny ways.
    And then they check our ID again, ``Get your driver's 
license out. We need to check your ID again before you can go 
onto the premises of the White House.'' So we go into the 
picnic. Several hundred people there. I don't know--200, 300, 
400--what it was.
    The President and the First Lady are normally there. On the 
17th of September this year, the First Lady was out of State. 
The President of the United States was there at that event.
    We have had four assassinations in this country. We have 
had about 2 dozen attempted, including the shooting of Theodore 
Roosevelt and Ronald Reagan. We just heard my friend, Ms. 
Holmes Norton, earlier in her questioning say that this 
President has received approximately three times the number of 
threats on his life of any other President. I was surprised to 
hear that.
    The President of the United States was there that night 
among 300 people, let's say, 400, whatever it was. I shudder to 
think--he was behind a rope. Those of you old enough to 
remember clotheslines, it was about a three-quarter-inch--
looked like a clothesline rope was his protection that evening 
from 300, 400 people.
    I shudder to think if this gentleman would have come 48 
hours earlier, jumped the fence that night, run into the crowd, 
or say he had eight or ten friends with him.
    The President of the United States was behind a clothesline 
rope that night. I've got pictures on my cell phone of him 
having--letting people take selfies with him, holding babies, 
taking pictures. It is a great gesture from the President. We 
want to be close to the President. We want to be able to talk 
to him, reach out to him.
    But if you don't take anything else away from this hearing 
today, take that picture in your mind. You weren't there, but 
48 hours earlier we could be having a whole different 
conversation here today, and that is very, very upsetting to 
me.
    I love first-responders. I've got a great deal of 
admiration, respect for first-responders, police, whether it is 
the local police, the sheriff, the highway patrol, the Secret 
Service, the FBI, the people that protect us.
    Let me ask you another question: Are there people with 
automatic weapons patrolling the White House grounds inside or 
out, standing there with their finger on a trigger of an 
automatic weapon in plain sight that might be a deterrent?
    Ms. Pierson. We do have a number of tactical assets that 
are deployed at the White House routinely.
    Mr. Long. Are they in plain sight with an automatic weapon 
with their finger on the trigger, like they are outside of this 
building and next door here at the Capitol?
    And I was driving down the street yesterday here. There was 
a Capitol Hill policeman with an automatic weapon, finger on 
the trigger, very, very observe--we were stopped at a stop 
sign, and I said, ``I wonder if they have an extra threat today 
or something because this guy is really on point.''
    But I think that--if we had something like that and I am 
thinking about jumping the fence, whether I have my full mental 
faculties or not, and I see someone there with an automatic 
weapon, their finger on the trigger, do you think I am not 
going to think two or three times about--just like I would 
about doing something at the Capitol because I see all these 
people around with automatic weapons guarding us, safeguarding 
our lives?
    But, again, I shudder to think what could have happened 48 
hours earlier, if that guy would have wanted to jump the fence 
that night and run out in the middle of 300 or 400 people or 
have two or three friends with him and the President is behind 
a clothesline rope.
    I appreciate you being here. Appreciate your testimony.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    I would second his point, that I've seen Senators wait 2 
hours after the Salahi incident to get into the White House in 
9-degree temperatures.
    I certainly hope that we won't have the kind of craziness 
that you can take 2 hours to get in the White House as a member 
of the House or Senate, but somebody can just jump the fence 
and be inside in a matter of seconds. That is, I think, what 
this hearing is all about.
    And I thank the gentleman.
    We now go to the patient gentlelady from Texas, Ms. Sheila 
Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much for your 
courtesy.
    And to the ranking member, Mr. Cummings, thank you for your 
courtesy and thank you for acknowledging that Homeland Security 
and this committee has worked together on a number of issues.
    Before I started, I want to put into the record by reading 
it the words expressed by Mr. Obama, our President, just last 
week, as, Madam Director, you made it very clear that, at the 
General Assembly, you protected not only the President, but 140 
Heads of State.
    And the President said, ``The Secret Service does a great 
job. I am grateful for all the sacrifices they make on my 
behalf and on my family's behalf.''
    I wanted to just add that because the President has 
confidence.
    I also want to acknowledge that your storied history 
equates to the storied history of the Secret Service starting 
in 1865, and we recognize that it has continued in that 
service.
    And I hope this hearing, as my colleagues have said, 
between Republicans and Democrats, would alter this headline 
that I hold up that says ``The Secret Service opens door to 
ridicule.'' I disagree with that and say it opens the door to 
restructuring and revamping because I think you have been very 
honest with us today.
    And I also hold, since it was mentioned, documents, which I 
would ask, if I am able to put into the record, unanimous 
consent. I don't know if that----
    Chairman Issa. Without objection, the entire document will 
be put into the record.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    The list of assassinated presidents, four dead--too many--
and six was attempted. That is the basis of our passion.
    I also want to acknowledge the Homeland Security Inspector 
General report on three headlines that I'll read--and maybe we 
will get into this because I have some specific questions--in 
the classified.
    But it had three points: Policies and procedures for 
proposing and issuing discipline are insufficient; United 
States Secret Service is not always in compliance with Federal 
disciplinary rules; internal controls are insufficient to 
ensure discipline is aligned with agency.
    Now, you would probably say that a lot of this has been 
corrected, and I look forward to those questions. But let me go 
specifically to my concern.
    On July 19, the State Virginia Police found a man that had 
any number of indictable things--and when I say that, sawed-off 
shotguns, rifles, a number of items that are not the normal 
course--even though he is under the Second Amendment. And then, 
on August 25, our officers stopped this gentleman.
    I am going to say to the American people, since this 
President is documented, maybe because he is different, maybe 
because of the policies, that he has had more threats than 
others.
    I am going to say to the American public maybe someone 
should have known the gentleman who jumped the fence on the 
19th. Maybe his family should have reported him.
    But I do believe that it was unacceptable that he was 
stopped on August 25 with the information and there could not 
have been some basis upon which this gentleman could have been 
referred to an institutional hold or referred to call family 
members in and to address the question. Yes. Individuals have 
that.
    My question to you is: Why was this gentleman that jumped 
on September 19, stopped on August 25 with a background of the 
enormous amount of guns and other threatening items--why wasn't 
he taken into custody?
    Let's not say that law didn't allow us. Why wasn't there a 
way that he could have been held, his family could have been 
called, the military's an ex-retiree--or an ex-officer of the 
military could not have been called?
    And I have another question. So maybe I should ask it out 
of courtesy to my colleagues.
    The other egregious thing that I thought was particularly 
outrageous is, in the 2011, when it was either--it either was a 
car backfiring or gang fights--which I have never heard of gang 
fights at the White House--I am asking you this question on the 
one that happened on the 19th. The most egregious that I could 
ever think is that the individuals surveying the White House on 
that day failed to stop him.
    And we have a picture, which you cannot see, of--one, two, 
three, four, five--six uniformed officers--I wonder if there is 
a fitness problem here--chasing this gentleman who could not 
capture him. All six of them in this picture could not capture 
him.
    And so my question is: What in the open domain stopped them 
from getting him before he jumped the fence? This is on 
September 19. What stopped them from getting him when he jumped 
over the fence with six or more officers chasing him--uniform 
officers?
    And why would in the September 2011 event you think that it 
was a gang fight instead of a more serious investigation into 
the fact that there was gunfire?
    Ms. Pierson. We are looking into why Mr. Gonzalez was not 
stopped when he came over the fence, I've stated publicly, and 
I'll continue to work with my workforce to understand why he 
was allowed to make access to the mansion and why he wasn't 
detained earlier, as soon as he jumped the fence.
    I need to understand why he was not recognized earlier in 
the day and further surveillance put on him as to further 
analysis as to why he was there and why he had returned to the 
White House. I cannot explain those questions today.
    In regard to the shooting back in November of--11 of 2011, 
all's I can advise is that, in collaboration with the U.S. Park 
Place, the Metropolitan Police Department, the Secret Service, 
the conflicting witness statements, at--that night at that time 
there was confusion about whether there were shots at the White 
House or shots from car to car.
    It appears to me that those are also documented in the 
police reports. I regret the confusion. It occurred 3 years 
ago. I know that we have learned from that incident and the 
Secret Service would react differently today than it did 3 
years ago.
    Ms. Jackson Lee. Mr. Chairman, let me just conclude by 
saying, in the light of ISIL and Corazon, with direct interest 
and commitment to attacking the United States and maybe the 
President, I think this hearing highlights the serious need for 
revamping and restructuring that is so key when we all are 
working together for the ultimate good of protecting the First 
Family's life. I hope you agree with me.
    Ms. Pierson. Yes, ma'am.
    Ms. Jackson Lee. I yield back.
    Chairman Issa. Thank you.
    Ms. Jackson Lee. I yield back.
    Chairman Issa. Pursuant to the agreement, chairman and 
ranking member will divide 10 minutes equally, 5 minutes per 
side.
    I will now yield 4 of those minutes to the gentleman from 
Utah, Mr. Chaffetz.
    Mr. Chaffetz. I thank the gentleman and, again, appreciate 
this hearing.
    Director, anytime there is a breach of protocol or the 
President's personal security has been jeopardized or the White 
House security perimeter has been breached, is there an 
internal review?
    Ms. Pierson. Yes.
    Mr. Chaffetz. And are you aware--are you--can you assure 
the committee that you are informed anytime those things 
happen?
    Ms. Pierson. I am expected to be informed. Yes.
    Mr. Chaffetz. Is the President of the United States 
informed?
    Ms. Pierson. I would assume that the President of the 
United States is informed. I don't know.
    Mr. Chaffetz. You are the head of the Secret Service. 
Explain to me why you wouldn't know that.
    Ms. Pierson. Well, your question was subjective as to 
whether or not I would know.
    Mr. Chaffetz. Well, who briefs--do you brief the President 
or don't?
    Ms. Pierson. If your question is when are--there are 
incidents that involve the President of the United States or 
the First Family and security concerns, yes.
    Mr. Chaffetz. Then, you do brief the President?
    Ms. Pierson. Yes.
    Mr. Chaffetz. Do you brief the President if there has been 
a perimeter breach at the White House?
    Ms. Pierson. I have confidential conversations with the 
President.
    Mr. Chaffetz. Do you brief the President if he has--his own 
personal security has in any way been jeopardized?
    Ms. Pierson. I have confidential conversations with the 
President, and those would be the topics that we would cover, 
in addition to other things.
    Mr. Chaffetz. What percentage of the time do you inform the 
President if his personal security has been breached?
    Ms. Pierson. I would say in proximity to the incident.
    Mr. Chaffetz. No. I asked you: What percentage of the time 
do you inform the President if his personal security has in any 
way, shape or form been breached?
    Ms. Pierson. Percent of the time? 100 percent of the time 
we would advise the President.
    Mr. Chaffetz. You would advise the President?
    Ms. Pierson. Yes.
    Mr. Chaffetz. In calendar year 2014, how many times has 
that happened?
    Ms. Pierson. I have not briefed him, with the exception of 
one occasion for the September 19 incident.
    Mr. Chaffetz. So the only time you have briefed the 
President on perimeter security, the President's personal 
security, the First Family's security, has been one time in 
2014?
    Ms. Pierson. That is correct.
    Mr. Chaffetz. Mr. Chairman, as we kind of wrap up here, I 
think there is a bipartisan call for change, to change. I would 
like to ask for an independent review. I think there needs to 
be a top-down review of not only security but, also, the 
culture. And I want to refer our colleagues to this.
    And, Madam Director, I don't understand why Special Agent 
Basic Classes, in 2012, there were zero and, in 2013, there was 
one. In the Uniformed Division Basic Classes, in 2012, there 
was one and, in 2013, there was one. I don't understand that.
    I also want to again go back to this Inspector General's 
report because I think there is a serious, serious problem 
here.
    Let me read some questions in how the Secret Service agents 
themselves responded:
    ``If a senior manager engages in misconduct or illegal 
activity, he or she is held accountable.'' Less than half of 
the respondents said that that was true.
    ``I can report a suspected violation of any rule, 
regulation or standard of conduct without fear of 
retaliation.'' Only 55.8 percent of the respondents said that 
that statement was true.
    Again, Secret Service agents themselves in a confidential 
survey, when asked, ``The Secret Service's disciplinary process 
is fair,'' only 40.3 percent said ``yes.''
    ``Disciplinary actions within the Secret Service are 
applied consistently for similar offenses.'' Only 30 percent 
said ``yes.''
    ``Disciplinary actions within the Secret Service are at the 
appropriate level of severity, given the offense.'' Only 36.6.
    This demands an independent investigation and review team--
the FBI, military, whatever it takes--but they need to look at 
the management, they need to look at the leadership, they need 
to look at the culture and the security.
    I thank the chairman.
    Chairman Issa. I thank the gentleman.
    The entire IG report will be included in the supplemental 
of the hearing.
    Chairman Issa. I am going to reserve that last minute and 
yield to the ranking member.
    Mr. Cummings. Ms. Pierson, I just--Director Pierson, I just 
want to follow up on some of Ms. Jackson Lee's questions.
    Going back to Mr. Gonzalez, you confirm that the Secret 
Service did an extensive interview of him. Is that right? Is 
that right?
    Ms. Pierson. Yes, sir.
    Mr. Cummings. And I believe you testified that you 
requested his medical files, which documented his medical 
illness, and he agreed that you could have them. Is that what 
you told us?
    Ms. Pierson. Our procedures are, in consultation with the 
individual, Mr. Gonzalez, the scope of the investigation would 
include a confidential release of their medical records, and he 
complied. Yes.
    Mr. Cummings. So you actually--Secret Service had his 
medical files. Is that right?
    Ms. Pierson. Yes. That is part of their investigation.
    Mr. Cummings. Here is my question. Federal law prohibits 
certain people with mental illnesses from possessing firearms. 
That statute is 18, USC, 922(g).
    Now, the statute is detailed, but the prohibition covers 
people who have been ``adjudicated as a mental defective'' or 
who have been committed to an institution for mental illness.
    Are you aware of that statute?
    Ms. Pierson. Yes, I am.
    Mr. Cummings. According to press reports, Gonzalez had 
severe mental illness. He was apparently seeing a military 
psychiatrist, who diagnosed him with severe mental illnesses, 
and his family confirmed the same thing.
    What steps did the Secret Service take to prevent this 
individual from possessing firearms after he was arrested in 
July and after the Secret Service interviewed him?
    Ms. Pierson. Ranking Member Cummings, he was interviewed by 
the Virginia State Police. We notified the Alcohol, Tobacco and 
Firearms, who interviewed Mr. Gonzalez, who notified the Secret 
Service, based on their discussions with Mr. Gonzalez, to have 
a further discussion with him. So many Federal agencies have 
been in contact with Mr. Gonzalez.
    Mr. Cummings. But--so you consulted with ATF?
    Ms. Pierson. ATF was the initial investigators, first 
responded to Virginia State Police's inquire of his weapons.
    Mr. Cummings. When the Secret Service spoke to the family, 
didn't they also say he had a mental illness and needed help?
    Ms. Pierson. The family concurred that he exhibited signs 
of PTSD.
    Mr. Cummings. The statute says the prohibition applies when 
any lawful authority has made a determination that the person, 
as a result of mental illness, is a danger to himself or to 
others.
    Don't you think that applies here?
    Ms. Pierson. It would be worth having further investigation 
in concurrence with his interview. Yes.
    Mr. Cummings. Let me just conclude.
    You know, the question has come up--and every time I step 
out in the hall just for a minute, I have got reporters coming 
up to me, asking me, ``Do you think that Ms. Pierson--Director 
Pierson can correct the situation?'' And what I have said is 
that the jury is still out.
    And let me tell you why I say that. You were talking about 
internal review a little bit earlier. And again I go back to 
that whole culture question. If your Secret Service members 
don't feel comfortable sharing information, I don't know how 
you get the information that you need to address the kind of 
concerns that you might have because you won't even have the 
information.
    And then it hit me, as I was thinking about this whole 
thing, if I have got Secret Service members who are more 
willing to be whistleblowers and come before the Congress, what 
that tells me is that they don't trust each other. There is a 
problem of trust within an agency--and correct me if I am wrong 
on this point--that really needs to have trust within it.
    Is that right? Wouldn't you agree with that piece?
    Ms. Pierson. Yes. We do need to have confidence and trust 
with each other. That is correct.
    Mr. Cummings. So--so----
    Chairman Issa. Gentleman, I think she answered to the 
negative of your question of: Isn't there a lack of trust? And 
she said:Yes. There is trust. I will restore the time.
    Mr. Cummings. Yeah.
    Do you believe that there is a lack of trust?
    Ms. Pierson. No. I do believe that employees trust each 
other.
    Mr. Cummings. But--so, then, help me. Please help me with 
this. Help me with this.
    How do you--and I--and I know--I think you have the 
greatest of intent. You have given us 30 years, and I 
appreciate it.
    How do you get past that--it is hard for me to get past 
that whole issue of folks not being willing. Members of the 
Secret Service are coming to Members of this committee--not to 
me, but to others--telling them things that--and they don't 
even seem to discuss them with you all, their higher-ups. And 
it goes back to the lady back--the agent, back to 2011, when 
she was apparently afraid or thought that nobody would listen 
to her.
    Help me. Just tell me how you are going to deal with that.
    Ms. Pierson. Ranking Member Cummings, I have made a number 
of changes in our management and our leadership team. I am 
going to continue to make changes in our leadership team for 
promoting individuals, for spending a lot of time helping them 
become leaders and supervisors or holding them accountable.
    We are holding the workforce accountable. We are providing 
more opportunities for training. We are spending time doing 
engagement sessions with the workforce to find out what are 
some of the inherent problems.
    Mr. Cummings. You said a little bit earlier you are going 
to support new leadership.
    So you are constantly bringing in new leadership. Is that 
right?
    Ms. Pierson. When I took this position, we were down 70 
special agent supervisory positions. Those positions have now 
been filled.
    Mr. Cummings. Thank you very much for your testimony. I 
look forward to talking with you in the classified briefing.
    Chairman Issa. I thank the gentleman.
    I now yield 1 minute to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    I want to come back because, in testimony here, you have 
been very specific. You have said 500 to 550 employees. 
Chairman Issa asked you that again, and you continued to stay 
with that. So I went and asked for what you were requesting 
this year, and you should have a copy of that. We have given 
that to your staff right there.
    How is it that, if you are down 550 full-time employees, 
that you are only asking for 61 more? Why would you not ask for 
500?
    These, again, are your numbers. And I am just trying to 
find--you know, in all of this, it is all about trust and 
integrity, and some of your testimony just doesn't seem to line 
up with the facts.
    Ms. Pierson. Well, it is challenging when you start to talk 
about operational positions and----
    Mr. Meadows. Well, it is challenging, from an oversight 
standpoint, to get to the truth, and that is what we are trying 
to do. We are giving you this opportunity.
    Ms. Pierson. Thank you.
    If you would, it is challenging to talk about an FTE in a 
full-time position. The FTEs represent 50 percent in that first 
year that they would be hired.
    Part of the challenge that we have had and part of what I 
have presented to the committee and asked for their support on, 
both from the chair and the ranking member, is authority for 
the Secret Service to pursue accepted service legislation. 
Hiring is a challenge for me, and trying to hire in a process 
that is cumbersome is more difficult.
    The agents in the Uniformed Division, officers and 
personnel that we hire within the Secret Service, require a 
robust background investigation. They require a lot of security 
clearance.
    Mr. Meadows. But why don't you request the funds to do 
that?
    Ms. Pierson. I requested legislation to support me and to 
be able to identify new efficiencies in the hiring process.
    We put out a vacancy announcement for special agents, 
received 45,000 applications, and because of the cumbersome 
processes that I have to comply with, we have only been able to 
onboard 72 this year.
    Mr. Meadows. So how long will it be before the President is 
safe, then? Under your scenario, you have got to wait for 
legislation. You have got to wait for an act of Congress. That 
doesn't make sense.
    Ms. Pierson. Well, we are currently trying to work with the 
Office of Personnel Management and identify every efficiency 
that we possibly can to assist us in being able to bring on 
these personnel that we critically need.
    Mr. Meadows. So is the President safe today, then?
    Ms. Pierson. The President is safe today. And we are going 
to continue to migrate our resources to every place that we 
need to ensure the President, his family, those others that we 
protect, as well as the White House complex, are safe.
    Mr. Meadows. I am troubled you didn't ask.
    I will yield back. Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    As promised, we will now recess and go into executive 
session.
    Briefly, before we do, I want to make sure that the 
Director in open hearing understands and our other witnesses 
who we are going to dismiss at this time it is the considered 
view of the chair--and, I believe, with--in concurrence with 
the ranking member--that an internal investigation by the 
Secret Service is not sufficient--I repeat--is not sufficient 
to provide the kind of confidence back to the American people.
    So I will be working with the ranking member to send a 
letter to the Secretary of Homeland Security, asking for a far 
greater and more independent investigation of the assets needed 
and the changes needed to bring back the kind of confidence the 
American people and the President deserve.
    We stand in recess. And we will reconvene in a secure 
location.
    [Whereupon, at 1:31 p.m., the committee proceeded in closed 
session.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
